<html>
<title> - BENGHAZI ATTACK, PART II: THE REPORT OF THE ACCOUNTABILITY REVIEW BOARD</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





BENGHAZI ATTACK, PART II: THE REPORT OF THE ACCOUNTABILITY REVIEW BOARD

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 20, 2012

                               __________

                           Serial No. 112-193

                               __________

        Printed for the use of the Committee on Foreign Affairs








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

77-538PDF                 WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         BRAD SHERMAN, California
EDWARD R. ROYCE, California          ELIOT L. ENGEL, New York
STEVE CHABOT, Ohio                   GREGORY W. MEEKS, New York
RON PAUL, Texas                      RUSS CARNAHAN, Missouri
MIKE PENCE, Indiana                  ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
CONNIE MACK, Florida                 THEODORE E. DEUTCH, Florida
JEFF FORTENBERRY, Nebraska           BEN CHANDLER, Kentucky
MICHAEL T. McCAUL, Texas             BRIAN HIGGINS, New York
TED POE, Texas                       ALLYSON SCHWARTZ, Pennsylvania
GUS M. BILIRAKIS, Florida            CHRISTOPHER S. MURPHY, Connecticut
JEAN SCHMIDT, Ohio                   FREDERICA WILSON, Florida
BILL JOHNSON, Ohio                   KAREN BASS, California
DAVID RIVERA, Florida                WILLIAM KEATING, Massachusetts
MIKE KELLY, Pennsylvania             DAVID CICILLINE, Rhode Island
TIM GRIFFIN, Arkansas
TOM MARINO, Pennsylvania
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director














                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable William J. Burns, Deputy Secretary, U.S. Department 
  of State.......................................................     6
The Honorable Thomas R. Nides, Deputy Secretary for Management 
  and Resources, U.S. Department of State........................    11

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable William J. Burns: Prepared statement...............     8
The Honorable Thomas R. Nides: Prepared statement................    13

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California:
  Letter from Secretary Hillary Rodham Clinton dated December 18, 
    2012.........................................................    65
  Congressional Research Service report dated October 17, 2012...    73

 
BENGHAZI ATTACK, PART II: THE REPORT OF THE ACCOUNTABILITY REVIEW BOARD

                              ----------                              


                      THURSDAY, DECEMBER 20, 2012

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:02 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order. 
After recognizing myself and the ranking member, Mr. Berman, 
for 7 minutes each for our opening statements, we will then 
hear from our witnesses, Deputy Secretary Williams Burns and 
Deputy Secretary Tom Nides, no strangers to our committee. And 
so that we can allow members to question our witnesses directly 
as soon as possible, we will forego additional opening 
statements, and instead I will recognize each member for 6 
minutes following the presentation by our witnesses.
    Secretary Clinton was originally scheduled to be here 
today, but we have had to reschedule her appearance due to the 
unfortunate injury from which we all wish her a speedy and 
healthy recovery. She has confirmed once again that she has 
every intention of testifying before our committee by mid-
January, as soon as she gets the go-ahead from her doctors, so 
we will welcome the Secretary to our committee in mid-January.
    Before I begin my opening statement, I would like to raise 
the case of U.S. Citizen Jon Hammar, a proud marine who served 
in Iraq and Afghanistan, and who is unjustly incarcerated in 
Mexico. I'm giving you gentlemen a bipartisan letter addressed 
to Secretary Clinton, signed by close to 70 of my House 
colleagues, asking for the administration's immediate 
intervention with Mexican authorities to secure Jon Hammar's 
release, as well as a letter from Jon's parents, who are 
constituents of my district. I thank you gentlemen. If you 
could make sure that the Secretary gets it.
    I will begin my opening statement.
    When Secretary Clinton transmitted the report of the ARB, 
the Accountability Review Board, to our committee, she noted in 
her accompanying letter that all of us have a responsibility to 
provide the men and women who serve this country with the best 
possible security and support. Most of all she says, ``It is my 
responsibility as Secretary of State.''
    Tragically the Department did not meet its responsibility 
to our personnel in Libya. The lethal attack on our diplomatic 
mission in Benghazi was not the result of a protest against an 
obscure video as was initially claimed. Instead, and as the 
evidence makes clear, the attack was coordinated and carried 
out by terrorists targeting U.S. personnel.
    After the attack that killed Ambassador Stevens, Sean 
Smith, Tyrone Woods and Glen Doherty, the Secretary of State 
convened an ARB, which is required by statute due to the 
fatalities at the post. The ARB states that the attacks on our 
U.S. Nation in Benghazi on September 11th of this year were, 
and I quote, ``terrorist attacks.'' Contrary to initial 
assertions by the Obama administration, the ARB states that the 
attacks were security related and did not involve a protest 
prior to the attacks, which were unanticipated in their scope 
and intensity.
    Dispatches from the command center of the State 
Department's Bureau of Diplomatic Security on the day of the 
attack clearly reported it as a terrorist event, yet officials 
in Washington refused to recognize and label the attack both 
during and after September 11th for what it was.
    The ARB finds that the failures in leadership and 
management reached senior levels and resulted in a security 
posture at the diplomatic compound that was inadequate for 
Benghazi and grossly inadequate to deal with the attack that 
took place. This was not the result of insufficient 
information, nor lack of warning. As the ARB clearly states, 
the responsible officials at the State Department overlooked 
mounting evidence that the security situation in Benghazi was 
deteriorating. They ignored the series of attacks against 
Western interests in the months and weeks leading up to 9/11, 
and failed to respond to the urgent requests and pressing needs 
of those on the ground.
    Given the extensive series of emergency action committee 
reports and diplomatic security spot reports that indicated 
that the security situation in eastern Libya was going from bad 
to worse, why was the State Department unprepared for an 
assault there, especially on the anniversary of the worst 
terrorist attack in United States' history?
    The report provides the beginning of an answer when it 
states there was a pervasive realization among personnel who 
served in Benghazi that the special mission was not a high 
priority when it came to security-related requests. If security 
was not a priority, just what was the priority of the State 
Department in Libya and in Benghazi in particular?
    But we should be careful not to focus our attention 
entirely on the tragic failure in Benghazi and regard it as an 
isolated incident. One cannot look at the evidence and conclude 
anything other than it was a systemic failure with far broader 
and more worrisome implications. We cannot expect the same 
bureaucracy at State, whose management failures are now 
manifest, to objectively review the Department's organization, 
procedure, and performance. Nor can we have any confidence in 
their assessment of what went wrong and what actions are needed 
to prevent a repeat.
    Unfortunately the closer one looks, the more troubling the 
situation is, and the resignation yesterday of Eric Boswell, 
Charlene Lamb, and Raymond Maxwell should not shift our 
attention from the broader systemic failures at the State 
Department bureaucracy in Washington that this report has 
clearly revealed. Why, for example, has State ignored the long-
standing recommendation of the Government Accountability Office 
that the Department perform a strategic review that will enable 
it to adequately plan and carry out the necessary security 
mission for our diplomats abroad?
    Using the ARB as a guide, our priority must be to uncover 
the root causes of this tragedy and ensure that all necessary 
actions are taken to prevent a recurrence. I know that there 
will be an attempt to shift the responsibility for this tragedy 
to a shortage of resources. Requests for more money are a 
familiar refrain in previous State Department ARB reports. But 
budgetary constraints were not a factor in the Department's 
failure to recognize the threats and adequately respond to the 
situation in Benghazi. The problem was and is about misplaced 
priorities.
    If the State Department intends to blame its long string of 
failures on inadequate funding, then perhaps it should take a 
closer look at the money that is being lavished on global 
climate change, culinary diplomacy programs and other favored 
projects. This money could have been used for providing 
diplomatic security, including hiring additional personnel and 
providing them with adequate equipment and training.
    This report and this hearing are just the beginning of our 
efforts to provide the American people with answers as to why 
this tragedy occurred and how to protect our diplomats and 
other personnel serving overseas from unnecessary risks in the 
future, for in their devotion to duty, these brave men and 
women are putting their lives on the line for us, and we on 
this committee and in this Congress have no less a duty to 
them.
    I yield back the balance of my time, and I'm pleased to 
yield to my good friend, the ranking member, Mr. Berman of 
California.
    Mr. Berman. Thank you very much, Madam Chairman, for 
convening this hearing to continue our examination of how we 
should give our Government officials serving around the world 
the necessary protection to carry out their jobs.
    First I would like to wish Secretary Clinton, as you have, 
a speedy recovery, and hope she gets some well-deserved rest. 
As she nears the ends of her service as Secretary of State, I 
think it is an appropriate time to recognize the strong and 
steadfast leadership she has demonstrated over the past 4 
years.
    Among her many achievements, she has put the problems of 
women and girls in the forefront and helped make their voices 
heard around the world. The Secretary has brought needed 
attention to the dangers of repressive governments, including 
through her important emphasis on Internet freedom. She 
initiated the Quadrennial Diplomacy and Development Review to 
improve the work of our international affairs agencies, and she 
has been a leading advocate for the use of smart power, which 
advances the role of diplomacy, international alliances, 
multilateral institutions, public-private partnerships and 
foreign assistance in protecting our national security.
    We're fortunate today to have two people who have worked 
closely with her to make all these accomplishments possible: 
Deputy Secretaries Bill Burns and Thomas Nides. I thank you 
both for your service and appreciate your willingness to be 
here today.
    As we examined in last month's hearing, the tragic events 
in Benghazi painfully demonstrate the ongoing threats faced by 
our diplomats and development workers serving abroad. We must 
do our best to minimize the risks faced by these brave public 
servants and provide adequate funding to do so, but we must 
also recognize that such risks can never be completely 
eliminated.
    Ambassador Chris Stevens and his colleagues understood the 
hazards of their jobs and appreciated that in order to advance 
America's interests and effect positive change in the world, we 
can't isolate ourselves behind Embassy walls or limit the 
deployment of our diplomats to low-risk environments. It's 
important that we meet with the Afghan village elder, work with 
the Yemenese schoolteacher, assist the female activists in 
South Sudan. One of the reasons Ambassador Stevens traveled to 
Benghazi was to open an American Corner, a place where average 
Libyans could go to learn more about the United States and 
American values.
    At last month's hearing on Benghazi, Ambassador Ronald 
Neumann framed the issue well: How much risk are we willing to 
take to accomplish a particular mission, and how important is 
that mission to our national purpose? In high-risk environments 
our policymakers must ask and answer these difficult, but 
necessary questions. In some cases the benefits will outweigh 
the danger; in other cases they may not.
    The Accountability Review Board, chaired by Ambassador 
Thomas Pickering, just submitted its report this week. I would 
like to thank Ambassador Pickering, Admiral Mullen and the 
other members of the Board for agreeing to take on this solemn 
responsibility.
    The report reaches a number of troubling conclusions. 
Perhaps the most serious is that years of congressional paring 
away of the President's diplomatic security funding requests 
have not only seriously diminished the resources available for 
security at our posts, but it has also created a culture at the 
State Department that is more preoccupied with saving money 
than with achieving its security goals. The repeated rejection 
of requests for security upgrades at the mission in Benghazi 
is, some would argue, a manifestation of this culture.
    The report also notes that a failure of leadership in the 
Bureaus of Near Eastern Affairs and Diplomatic Security 
significantly contributed to inadequate security at the 
Benghazi mission. This bureaucratic breakdown included a lack 
of shared responsibility, resulting in stovepiped decisions on 
policy and security rather than a holistic approach.
    I'm pleased that Secretary Clinton has announced the State 
Department is already beginning to implement all of the ARB's 
recommendations and take additional steps to address security 
concerns. For example, she recently named the first-ever Deputy 
Assistant Secretary for High Threat Posts in the Diplomatic 
Security Bureau. That will ensure that missions located in 
high-risk areas like Libya and Yemen get the bureaucratic 
attention they deserve.
    The Department has also submitted the Increased Security 
Proposal, which would boost the number of diplomatic security 
personnel and give them greater capabilities. It would also 
provide enhanced security at older facilities, while 
accelerating construction at posts in high-threat areas. In 
addition, it would call for an increase in the number of Marine 
Security Guard detachments, which, among other things, are 
responsible for protecting classified information.
    In reviewing this and other proposals, we must carefully 
consider how best to mitigate the risks faced by the brave men 
and women who serve the United States around the world, while 
at the same time preserving their ability to do their jobs in a 
way that promotes America's national interests.
    Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman, for your 
statement.
    I now would like to introduce our witnesses. William J. 
Burns holds the highest rank in the Foreign Service, Career 
Ambassador, and became Deputy Secretary of State in July 2011. 
He is only the second serving career diplomat in history to 
become Deputy Secretary.
    Ambassador Burns served from 2008 until 2011 as Under 
Secretary for Political Affairs. He was Ambassador to Russia 
from 2005 to 2008, Assistant Secretary of State for Near 
Eastern Affairs from 2001 to 2005, and Ambassador to Jordan 
from 1998 to 2001.
    Ambassador Burns has also served in a number of other posts 
since entering Foreign Service in '82, including Executive 
Secretary of the State Department and special assistant to the 
Secretaries Christopher and Albright, and Acting Director and 
Principal Deputy Director of the State Department's Policy 
Planning Staff.
    Ambassador Burns is the recipient of two Presidential 
Distinguished Service Awards and a number of Department of 
State awards, and all well earned.
    Thank you, Bill.
    Thomas Nides is the Deputy Secretary of State for 
Management and Resources, serving as Chief Operating Officer of 
the Department. Prior to joining the administration, Mr. Nides 
was the chief operating officer of Morgan Stanley, from 2005 to 
2010. Before joining Morgan Stanley, Mr. Nides served as the 
worldwide president and chief executive officer of Burson-
Marsteller, and as chief administrative officer of Credit 
Suisse First Boston, the investment banking division of Zurich-
based Credit Suisse Group.
    Mr. Nides began his career in Capitol Hill as an assistant 
to the majority whip of the United States House of 
Representatives and executive assistant to the Speaker of the 
House. Mr. Nides later served as senior vice president of 
Fannie Mae and as chief of staff to the United States Trade 
Representative.
    Welcome, gentlemen. And if you would please rise so I could 
swear you in. Thank you.
    [Witnesses sworn.]
    Ms. Ros-Lehtinen. Let the record show that the witnesses 
answered in the affirmative.
    Thank you, gentlemen, and we will begin with you.
    Mr. Berman. Madam Chairman, one housekeeping matter.
    Chairman Ros-Lehtinen. Yes, sir, Mr. Berman.
    Mr. Berman. I ask unanimous consent that the Secretary 
Clinton's letter to you as chairman and me as ranking member be 
included in the record of this hearing.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman, and I meant 
to do that as well, so I'm glad that he is cleaning up after my 
sloppy act. Thank you.
    Without objection, the Secretary's letter will be included 
as part of the record. I apologize for that.
    Mr. Burns, Ambassador Burns, we will begin with you, sir.

STATEMENT OF THE HONORABLE WILLIAM J. BURNS, DEPUTY SECRETARY, 
                    U.S. DEPARTMENT OF STATE

    Mr. Burns. Thank you very much, Madam Chair.
    Mr. Berman, members of the committee thank you for this 
opportunity.
    Secretary Clinton asked me to express how much she regrets 
not being able to be here today, and I know she has confirmed 
to you, Madam Chair, her willingness to appear before you in 
January.
    Since the terrorist attacks on our compounds in Benghazi, 
State Department officials and senior members from other 
agencies have testified in 4 congressional hearings, provided 
more than 20 briefings for members and staff, and submitted 
thousands of pages of documents, including now the full 
classified report of the Accountability Review Board. Secretary 
Clinton has also sent a letter covering a wide range of issues 
for the record. So today I would like to highlight just a few 
key points.
    The attacks in Benghazi took the lives of four courageous 
Americans. Ambassador Stevens was a friend and a beloved member 
of the State Department community for 20 years. He was a 
diplomat's diplomat, and he embodied the very best of America.
    Even as we grieved for our fallen friends and colleagues, 
we took action on three fronts. First, we took immediate steps 
to further protect our people and our posts. We stayed in 
constant contact with Embassies and consulates around the world 
facing large protests, dispatched emergency security teams, 
received reporting from the intelligence community, and took 
additional precautions where needed. You'll hear more about all 
of this from partner Tom Nides.
    Second, we intensified the diplomatic campaign aimed at 
combating the threat of terrorism across North Africa, and 
continue to work to bring to justice the terrorists responsible 
for the attacks in Benghazi. And we are working with our 
partners to close safe havens, cut off terrorist finances, 
counter extremist ideology, and slow the flow of new recruits.
    And third, Secretary Clinton ordered an investigation to 
determine exactly what happened in Benghazi. I want to convey 
our appreciation to the Accountability Review Board's chairman 
and vice chairman, Ambassador Tom Pickering and former chairman 
of the Joint Chiefs of Staff Admiral Mike Mullen, and also Hugh 
Turner, Richard Shinnick and Catherine Bertini.
    The Board's report takes a clear-eyed look at serious, 
systemic problems, problems which are unacceptable; problems 
for which, as Secretary Clinton has said, we take 
responsibility; and problems which we have already begun to 
fix.
    Before Tom walks you through what we're doing to implement 
fully all of the Board's recommendations, I'd like to add a few 
words based on my own experiences as a career diplomat in the 
field. I have been a very proud member of the Foreign Service 
for more than 30 years, and I've had the honor of serving as a 
Chief of Mission overseas.
    I know that diplomacy by its very nature must sometimes be 
practiced in dangerous places. As Secretary Clinton said, our 
diplomats cannot work in bunkers and do their jobs. When 
America is absent, there are consequences, our interests 
suffer, and our security at home is threatened.
    Chris Stevens understood that as well as anyone. Chris also 
knew that every Chief of Mission has the responsibility to 
ensure the best possible security and support for our people. 
As senior officials here in Washington, we share this profound 
responsibility. We have to constantly improve, reduce the risks 
our people face, and make sure they have the resources they 
need.
    That includes the men and women of the State Department's 
Diplomatic Security Service. I have been deeply honored to 
serve with many of these brave men and women. They are 
professionals and patriots, who serve in many places where 
there are no marines at post and little or no U.S. military 
presence in country. Like Secretary Clinton, I trust them with 
my life.
    It's important to recognize that our colleagues in the 
Bureaus of Diplomatic Security and Near East Affairs and across 
the Department at home and abroad get it right countless times 
a day for years on end in some of the toughest circumstances 
imaginable. We cannot lose sight of that. But we learned some 
very hard and painful lessons in Benghazi. We are already 
acting on them. We have to do better. We owe it to our 
colleagues who lost their lives in Benghazi. We owe it to the 
security professionals who acted with such extraordinary 
heroism that awful night to try to protect them. And we owe it 
to thousands of our colleagues serving America with great 
dedication every day in diplomatic posts around the world.
    We will never prevent every act of terrorism or achieve 
perfect security, but we will never stop working to get better 
and safer. As Secretary Clinton has said, the United States 
will keep leading and keep engaging around the world, including 
in those hard places where America's interests and values are 
at stake.
    Thank you very much.
    Chairman Ros-Lehtinen. Thank you, sir.
    [The prepared statement of Mr. Burns follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Ros-Lehtinen. Mr. Nides.

 STATEMENT OF THE HONORABLE THOMAS R. NIDES, DEPUTY SECRETARY 
     FOR MANAGEMENT AND RESOURCES, U.S. DEPARTMENT OF STATE

    Mr. Nides. Madam Chairman, Congressman Berman, members of 
the committee, I also thank you for this opportunity.
    I want to reiterate what Bill has said: All of us who have 
had the responsibility to provide the men and the women who 
serve this country with the best possible security and support. 
From the senior Department leadership setting the priorities to 
the supervisors evaluating the security needs, to the Congress 
appropriating sufficient funds, we all share this 
responsibility. Secretary Clinton has said that as Secretary of 
State, this is her greatest responsibility and her highest 
priority.
    Today I will focus on the steps we are taking at Secretary 
Clinton's direction and will continue to take.
    As Bill said, the Board's report takes a clear-eyed look at 
the serious systemic problems for which we take responsibility 
and that we have already begun to fix.
    We are grateful for the recommendations from Ambassador 
Pickering and his team. We accept every one of them, all 29 
recommendations. Secretary Clinton has charged my office with 
leading the task force that will ensure that the 29 are 
implemented as quickly and as completely, and to pursue steps 
above and beyond the Board's report. The Under Secretary of 
Political Affairs, the Under Secretary for Management, the 
Director General of the Foreign Service, and the Deputy Legal 
Advisor will work with me to drive this forward.
    The task force has already met to translate the 
recommendations into about 60 specific action items. We've 
assigned every single one to a responsible bureau for immediate 
implementation, and several of them will be completed by the 
end of the calendar year. Implementation of each recommendation 
will be under way by the time the next Secretary of State takes 
office. There will be no higher priority for the Department in 
the coming weeks and months. And should we require more 
resources to execute these recommendations, we will work 
closely with the Congress to ensure that these needs are met.
    As I said, Secretary Clinton wants to implement the ARB 
findings and to do more. So let me offer some very clear 
specifics.
    For more than 200 years, the United States, like every 
other country around the world, has relied on host nations to 
provide the security for our Embassies and consulates. But in 
today's evolving threat environment, we have to take a new, 
harder look at the capabilities and the commitments of our 
hosts. We have to reexamine how we operate in places facing 
emerging threats, where national security forces are fragmented 
or may be weak. So, at Secretary Clinton's direction, we moved 
quickly to conduct a worldwide review of our overall security 
posture, with particular scrutiny on a number of high-threat 
posts.
    With the Department of Defense, we deployed five 
interagency security assessment teams, made up of diplomatic 
and military security experts, to 19 posts and to 13 countries, 
an unprecedented cooperation between the Departments at a very 
critical time. These teams have provided a roadmap for 
addressing emerging security challenges.
    We're also partnering with the Pentagon to send 35 
additional detachments of Marine security guards--that's about 
225 Marines--to medium- and high-threat posts, where they will 
serve as a visible deterrence to hostile acts. This is on top 
of the approximately 150 detachments we already deployed. We're 
realigning resources in our 2013 budget request to address 
physical vulnerabilities and reinforce structures wherever 
needed to reduce the risk from fire. And let me add, we may 
need your help in ensuring that we have the authority to 
streamline the usual processes to produce faster results.
    We're seeking to hire more than 150 additional diplomatic 
security personnel, an increase of 5 percent, and to provide 
them with the equipment and training that they need. As the ARB 
recommended, we will target them squarely at securing our high-
threat posts.
    I want to second Bill's praise for these brave security 
professionals. I have severed in this Department for only 2 
years, having come from the private sector; however, as I've 
traveled to places like Iraq, Afghanistan and Pakistan, I've 
seen firsthand how these dedicated men and women risk their 
lives. We all owe them a debt of gratitude as they go to work 
every day to protect more than 275 posts around the world.
    As we make these improvements in the field, we are also 
making changes here in Washington. We named the first-ever 
Deputy Assistant Secretary of State for High-Threat Posts 
within the Bureau of Diplomatic Security. We're updating our 
diplomatic procedures to increase the number of experienced and 
well-trained staff serving in those posts.
    We are working to ensure that the State Department makes 
decisions about where our people operate in the ways that 
reflect our shared responsibility for our security. Our 
regional assistant secretaries were directly involved in our 
interagency security assessment process, and they will assume 
greater accountability for securing their people and posts.
    We'll provide this committee with detailed reports on every 
step we're taking to improve our security and implement the 
Board's recommendations. We look to you for the support and 
guidance as we do this.
    Obviously, part of this is about resources. We must equip 
our people with what they need to deliver results and safety, 
and will work with you as the needs arise. But Congress has a 
bigger role than just that. You have visited our posts; you 
know our diplomats on the ground and the challenges that they 
face. You know our vital national security interests are at 
stake, and that we're all in this together.
    We look forward to working with you. Thank you, Madam 
Chair, for your support and counsel and for this opportunity to 
discuss these important matters. We'll both be happy to answer 
your questions.
    [The prepared statement of Mr. Nides follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                              ----------                              

    Chairman Ros-Lehtinen. Thank you very much, gentlemen, to 
you both. And I would suggest that at the very least the 
President appoint an inspector general from outside the State 
bureaucracy to ensure that the recommendations are adequately 
implemented.
    I will ask one question on the State's misplaced 
allocations and one on the bogus protest over video narrative. 
The ARB notes that there was a view that main State did not 
consider Benghazi a priority. If we look at September 10, 2012, 
just the day before the most recent 9/11 terrorist attack 
against the U.S. and our people, we see that Secretary Clinton 
was engaged in launching a new program called the Diplomatic 
Culinary Partnership, where American chefs travel the world to 
engage in culinary diplomacy.
    Certainly this is an example of misplaced priorities. As 
such, what assurances can you provide to Congress that the 
State Department's budget request will prioritize U.S. national 
security and the security of our diplomatic personnel, 
especially at high-risk posts, over such programs like the 
Diplomatic Culinary Partnership or over the close to the $1 
billion that is allocated for global climate change programs?
    And secondly, who specifically changed Susan Rice's public 
talking points by eliminating references to al-Qaeda and why? 
If there was a national security concern, what was it? When did 
the inaccurate spontaneous protest narrative originate--where 
did it originate? And why was that story deemed more fit for 
publication than the accurate terrorism evidence? And if 
Ambassador Rice had little direct knowledge of the facts on the 
ground in Benghazi, why was she selected by the administration 
to be the spokesperson on this subject?
    Ambassador Burns.
    Mr. Burns. Well, Madam Chair, on your second question--and 
I'll turn to Tom on the first with regard to the budget--what 
happened in Benghazi on September 11th was clearly a terrorist 
attack. Secretary Clinton addressed that directly the following 
morning in her first public statement when she talked about an 
assault by heavily armed militants on our compound. Later that 
same day President Obama talked of an act of terror.
    What was not clear that day was who exactly was involved, 
which terrorists were responsible, what their motives were, how 
exactly this terrorist attack came about, whether it was 
planned well in advance or more a target of opportunity.
    I am confident that the senior administration officials who 
spoke to this issue and the intelligence community experts on 
whom they relied acted in good faith throughout this period. 
Their focus was on trying to be as factual as possible. Their 
focus was on actions, because, Madam Chair, as you know, there 
were a number of other concerns in this period. Over that 
period of days, we had mobs coming over the walls of our 
Embassies in Cairo, in Tunis and in Sana'a. That was a very 
heavy focus for Secretary Clinton and for people across the 
administration.
    We were able to clear up the inaccuracies in the original 
assessments, because, as the ARB points out, there was no 
protest or demonstration before the attack took place, but it 
did take the intelligence community some days to determine that 
that was inaccurate as they debriefed the survivors of the 
attack on Benghazi. I'm sure our colleagues in the intelligence 
community wish that they could have cleared up those 
inaccuracies sooner, and they did it as quickly as they could 
and then were in direct touch with the Congress and briefed you 
on it.
    Mr. Nides. Madam Chair, as you are well aware, not only 
have I spent the last 2 years up here daily making sure that we 
have the resources for the men and women who support the State 
Department. There is no one that cares more about this maybe 
than I did than Secretary Clinton, who has spent tireless hours 
making sure that every dollar--and I mean every dollar--that we 
use of taxpayers' money is used effectively. As you are well 
aware the budget of the State Department, everything we do, 
including all of the assistance we give, including aid to 
Israel, all the assistance we do for everything around the 
world, to the programs at PEPFAR, to supporting the 275 posts 
around the world for all of our staff, for everything we do, is 
less than 1 percent of the Federal budget.
    We fight every single day to make sure we have the right 
resources, but, as importantly, we make sure that there is a 
dime that is not wasted. We understand the importance of the 
budgetary constraint that this committee and this Congress is 
going through, and I assure you--and I assure you--that we are 
thinking every day how we can make sure that every dollar is 
used wisely to protect our people and to provide the assistance 
around the world to people who deserve it. Thank you.
    Chairman Ros-Lehtinen. Thank you.
    On the specific questions regarding Susan Rice, do you have 
anything further to add about the talking points and the 
references? Because in emails, as the attacks were under way, 
the diplomatic security operations command center was calling 
it a terrorist attack as it was under way. So it's not like the 
picture was clearer several days later; while the attack was 
taking place, in emails. 
    Mr. Burns. Madam Chair, as I said, both the Secretary and 
the President on September 12th, I think, addressed in very 
clear terms what happened and what the nature of the attack 
was.
    Second, the talking points that you referred to were 
produced by the CIA. I think the CIA has briefed a number of 
people on the Hill about the process that they went through, 
and I'm sure they would be glad to come up and answer it in 
more detail.
    Chairman Ros-Lehtinen. Thank you.
    And in my last 5 seconds, just to reiterate, we're glad 
that the Secretary is going to implement every recommendation, 
but we hope that there's an inspector general, because without 
that, we have seen that the recommendations from previous ARBs 
have not been heeded.
    Thank you very much.
    Mr. Berman is recognized.
    Mr. Berman. Madam Chairman, I'm going to pass my 
opportunity to question now and hold it until the end, if I 
may.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Ackerman.
    Mr. Ackerman. Thank you, Madam Chairman, very much.
    Thank you, Mr. Berman. Thank you for your extraordinary 
service. You certainly are going to be one that's going to be 
missed around these meeting rooms.
    This might be my final six moments to speak in my 30-year 
career here. I want to first start by apologizing to the Deputy 
Secretaries because you have been brought here as a ruse. You 
are being used as foils to the conflicting intentions of some 
people on our committee and others in Washington for partisan 
political purposes and are not here really to explain how we 
can work together more cooperatively as Americans to make 
things better.
    But my great fear as I leave here is that we've become a 
partisan, bickering bunch of grousing old people trying to 
exploit whatever we can to our own political advantage. We've 
become a group of small people with press secretaries. We've 
become people who want to exploit any kind of national calamity 
to our political advantage of our party. And the public is sick 
and tired of it, as they should be.
    We need two viable political parties in this country to 
make our democracy work. We need two at least distinct parties 
explaining their viewpoints and their values and their road to 
our collective success, and put choices before the American 
People.
    And to my friends on the other side, I would like to 
suggest that you reexamine your approach, because I thought, in 
my personal individual opinion, that the voters didn't reject 
your policies, they rejected your attitude. We should be 
working together and not at cross purposes. We should respect 
everybody in our Government for the good efforts that they put 
forth, including especially the President of the United States, 
and not refer to him in such vile terms, trying to take down 
and disqualify an administration as being illegitimate, trying 
to quibble around here on this particular issue of the 
narrative rather than how we work together to make things 
better, to quibble over somebody said a particular word or 
didn't use the right word rather than figure out how to avoid 
the mistakes that might have been made to not lose American 
lives on into the future. That's what we should be doing 
together as Americans. Anything less is demeaning to the 
process and to ourselves as good, decent human beings. We have 
much more to offer than that.
    And I would suggest that derogatorily looking at the 
Secretary of State, who has worked herself to the bone to the 
point of dehydration and exhaustion, of traversing the globe 
teaching cooks classes or some nonsense rather than doing 
things that are serious does a disservice to the job that she 
has done in the name of all of us. Certainly she's a qualified 
individual who can both cook and talk policy at the same time 
and try to bring the peoples of the world together with a 
respect for the United States and what we really stand for and 
what our values really are.
    Sorry if I'm interrupting anybody over there.
    More has been done in the few short weeks in this 
administration to try to look into what went wrong than in the 
previous dozen years. This administration has given a serious 
look at what has gone on here and has made recommendations that 
they are looking to implement with our input as quickly as 
possible instead of our quibbling over nonsense. Instead we 
talk about whether or not it was motivated by a video or it 
wasn't motivated by a video. These are complicated situations 
and we have to approach them seriously.
    More has been done on this particular issue in which four 
wonderful lives were lost than in all the time of the previous 
war, the longest war in the history of the country. Not 4, not 
40, not 400, but 4,000 lives were lost, and how many heads 
rolled? How seriously did we look into it?
    Listen, I disagreed with Presidents of the United States, 
but I disagreed as a matter of policy. But once that was our 
policy, he was still our President, and I still wanted him to 
succeed, because the failure of a President is the failure of 
the Nation. Disagree with the policy, but once it is the 
policy, try to make it work, try to make it better, rather than 
to try to bring down an administration and to quibble and 
fight.
    We've taken the train off the tracks. I would be very 
pleasantly surprised if one of our colleagues, even one of our 
colleagues, had on his or her agenda today to talk about any 1 
of the 29 points and recommendations that were made and say, is 
this particular one good or bad, or can we strengthen it, or 
should it be in there? Because we've not really, I apologize 
again, come to do that. We've come here to either play defense 
or offense and defend our point of view rather than do what's 
right in the name of our country.
    It's really been an honor and a pleasure to serve with all 
of you, and we do have different opinions.
    Chairman Ros-Lehtinen. Thank you. The gentleman's time is 
up.
    Mr. Ackerman. And I will be one of those private citizens 
on the other side of the television holding you accountable.
    Chairman Ros-Lehtinen. Mr. Ackerman, we all aspire to your 
purity, but, you know, the flesh is weak.
    Mr. Ackerman. I thank you----
    Chairman Ros-Lehtinen. Mr. Smith is recognized for his 6 
minutes. He is the chairman of the Subcommittee on Africa, 
Global Health, and Human Rights.
    Mr. Smith. Thank you very much, Madam Chair.
    Madam Chair, on March 12, 1999, I chaired a hearing, the 
fourth in a series, that focused on the findings of the two 
Accountability Review Boards that had been established to probe 
the August 7, 1998, bombings in Nairobi and Dar es Salaam. 
Admiral William Crowe, chair of those two Boards, told my 
subcommittee that the car bombs killed more than 220 people, 
including 12 U.S. Embassy employees and family members and 32 
Kenyan national employees of the United States Government, and 
injured more than 4,000 Americans, Kenyans, and Tanzanians. He 
said the ARBs were ``most disturbed by two intertwined issues: 
First, the inadequacy of resources to provide security against 
terrorist attacks, and, second, the relatively low priority 
accorded security concerns throughout the U.S. Government by 
the U.S. Department of State.''
    Admiral Crowe sat, in 1999, right where Secretaries Burns 
and Nides sit, and said, ``In our investigations of the 
bombings, the Boards were shocked how similar the lessons were 
to those drawn by the Bobby Inman Commission some 14 years 
ago.'' Of course, that was in 1985.
    In direct response to Admiral Crowe's recommendations, I 
sponsored a bipartisan law, the Secure Embassy Construction and 
Counterterrorism Act of the 1999, that authorized $4.5 billion 
over 5 years for the acquisition of the U.S. diplomatic 
facilities, and residence and other structures located in close 
proximity of such facilities, and to provide major security 
enhancements to U.S. diplomatic facilities. That law beefed up 
security requirements for U.S. diplomatic facilities, including 
threat assessments; emergency action plans; security 
environment threat lists; site selections; perimeter distance, 
the setbacks; crisis management training; diplomatic security 
training; rapid-response procedures; storage of emergency 
equipment; and increased antiterrorism training in Africa. I 
read the new ARB report, and it almost says the exact same 
thing.
    Bipartisan appropriations bills since 1999 have funded the 
Department of State's Bureau of Overseas Building Operations 
which has completed 95, at least 95, new diplomatic facilities 
and has an additional 40 projects in design or construction. So 
much has been done. Obviously we can always do better.
    I would note parenthetically that there are now at least 
3,114 diplomatic security personnel; in 1998, there were less 
than a 1,000 security specialists. That's a threefold increase, 
and that is significant. We need more perhaps, but that is 
significant.
    So when it comes to resources--and, of course, as I said, 
we can always do a better job--authorities and funds have been 
increased to systematically boost worldwide U.S. Embassy 
security over the past dozen years.
    Of particular concern is the fact that the Benghazi ARB, 
chaired by Ambassador Pickering, seems to make nearly identical 
points using language that--and I read them side by side again 
last night--that are almost verbatim to the Boards that were 
chaired by Admiral Crowe. The Pickering ARB cites systemic 
failures in leadership and management deficiencies at senior 
levels within two bureaus of the State Department. Admiral 
Crowe's ARB said, and I quote, ``The Boards found that 
intelligence provided no immediate tactical warning of the 
August 7th attack.'' Ambassador Pickering's ARB said, ``The 
Board found that intelligence provided no immediate specific 
tactical warning of the September 11th attacks.''
    I would point out to my colleagues that, according to the 
New York Times, and this is a quote, ``In the spring of 1998, 
Prudence Bushnell, the U.S. Ambassador to Kenya, sent an 
emotional letter to Secretary of State Madeleine Albright 
begging for the Secretary's personal help.'' The January 9, 
1999, Times article said that Ms. Bushnell, a career diplomat, 
had been fighting for months for a more secure Embassy in the 
face of mounting terrorist threats. Secretary Albright, the New 
York Times reports, took no action. And 3 months later on 
August 7th, the American Embassies in Tanzania and Kenya were 
simultaneously bombed by car bombs.
    The Pickering Benghazi ARB found that the number of Bureau 
of Diplomatic Security staff in Benghazi on the day of the 
attack and in the months and weeks leading up to it was 
inadequate despite repeated requests from Special Mission 
Benghazi and Embassy Tripoli for additional staffing. The 
Pickering report says that there was a pervasive realization 
among personnel who served in Benghazi that it was not a high 
priority.
    So my questions, three of them: In the lead-up to the 
attacks, were President Obama, Vice President Biden or 
Secretary Clinton aware of the repeated requests for upgrades?
    Secondly, why weren't President Obama, and Vice President 
Biden and Secretary Clinton interviewed by the Pickering ARB? 
How can one examine all the circumstances without interviewing 
the very top leadership?
    And finally, in 1999, Admiral Crowe released a list of over 
100 individuals interviewed. Has the Benghazi ARB list of 
interviewees been made public?
    Mr. Burns. I would be glad to start, Mr. Smith, and then 
Tom.
    On your first two questions, to the best of my knowledge, 
the specific security requests that were made, as you 
mentioned, from Benghazi as well as from Embassy Tripoli did 
not get as far as Secretary Clinton. You'd have to direct the 
other question to the White House, but with regard to Secretary 
Clinton, I believe that's accurate to say.
    I'm sorry, your second question?
    Mr. Smith. My other question is who was interviewed by ARB?
    Mr. Burns. I don't believe there was an interview of 
Secretary Clinton by the ARB, but, again, you'd have to address 
that to Ambassador Pickering as well.
    And then on the third question. 
    Mr. Nides. I think on the list of--I believe the ARB did, 
in fact, interview 100 individuals in this ARB as well. And I'm 
not certain it's in the ARB the names of the people who were 
interviewed, but--I think it may be, but I don't know if it is 
in a classified or unclassified version of the ARB.
    I would like to also point out, Congressman, which you made 
a very good point about the ARB in 1998 after the Kenyan 
bombings. One of the recommendations was, which you pointed 
out, which was to begin funding the construction of consulates 
and Embassies at a pace of about 10 a year. That was a decision 
of the bipartisan Board. They allocated at the time in 1999 
about $1.5 billion, which would pay for in 1998 dollars about 
10 a year. Unfortunately that has now dropped to $700 million.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Nides. We're only doing now two Embassies a year.
    Chairman Ros-Lehtinen. Thank you so much.
    Thank you, Mr. Smith, and thank you to the witnesses.
    Mr. Sherman, the ranking member on the Subcommittee on 
Terrorism, Nonproliferation, and Trade, is recognized.
    Mr. Sherman. I want to identify myself with the comments of 
the ranking member, particularly his recognition of Secretary 
Clinton's service to our country over the last 4 years. I want 
to identify myself with the comments of the gentleman from New 
York, particularly his call for us to rise above partisanship.
    We are now focused on diplomatic security. We've lost 11 
diplomats in the 10 years before Benghazi, and our focus on 
diplomatic security was modest. But now it becomes the 
preoccupation of this committee and a preoccupation of foreign 
policy, those concerned with foreign policy nationwide.
    Why now? Well, partly because this time we lost an 
Ambassador and a great man. But mostly it's because now 
Benghazi is not just a loss of diplomats, we've lost 11 before, 
but because now there's partisan advantage to be sought by one 
side or the other.
    This incident in Benghazi was important, but is it really 
more important than the North Korean nuclear program? Is it 
really more important than many of the other subjects that have 
not been the subject of so many hearings of this committee?
    We've now decided to focus on diplomatic security in part 
because we can blame one party or the other. We can blame the 
State Department for not allocating its resources to diplomatic 
security, or blame the Republican Congress for not 
appropriating enough.
    We should do more for diplomatic security, the State 
Department should follow its own procedures, and we haven't 
done so. But we'd like to believe in a world that is subject 
somehow to our control that if we just do the right thing, 
everything will turn out right. This is not the case, we are 
not that powerful, and the world is not made up that way. The 
fact is that bad things are going to happen to good people even 
if we are prudent and careful. And ultimately the security of 
our diplomatic personnel depends not on our own actions, but on 
the host country.
    Ambassador Burns, just for illustration here, even if we 
had twice the size of the diplomatic security detail, can you 
be certain that our Ambassador would have survived?
    Mr. Burns. I'd just make two comments, Mr. Sherman. First, 
the security of our diplomats overseas has been a preoccupation 
of the Department of State throughout the 30 years I've served 
in the Foreign Service, and it is a priority. We clearly fell 
down on the job with regard to Benghazi, but we need to 
reenergize our efforts and be relentless in implementing the 
recommendations that are made in this Accountability Review 
Board----
    Mr. Sherman. Ambassador, if you could just comment on the 
question. If we had doubled the security effort there----
    Mr. Burns. The Accountability Review Board addressed the 
issue. It talked about two areas of inadequacy. One of them was 
staffing, and in the Accountability Review Board report they 
indicate that it is not certain additional--that one or two 
additional diplomatic security agents would have made a 
difference in the outcome.
    Mr. Sherman. I want to get into some other issues. 
Obviously, the real responsibility for this heinous crime is on 
the perpetrators, but a big chunk of the responsibility is on 
the Libyan Government, a government that never purged itself of 
its Jihadist elements; a government that viewed Ghadafi as the 
enemy, but doesn't necessarily view the Libyan Islamic Fighting 
Group as enemy. It doesn't wage war against Ansar al Sharia. 
This is the government upon whom our diplomats' lives are 
dependent.
    We have a tendency in this country to view everything as 
good guy and bad guy, so since Ghadafi was the bad guy--in his 
last few years perhaps not as bad since the State Department--
we blocked it here--wanted to provide U.S. taxpayer money to 
charities controlled by Ghadafi's children. He had gotten a 
little better so--but we want to cast things as good guy, bad 
guy. So since Ghadafi was a bad guy, we want to view the Libyan 
Government as entirely the good guys. The fact is this is a 
government that is a coalition that includes, or at least 
countenances, some of the most evil Jihadist elements 
imaginable.
    Ambassador Burns, did the Libyan Government allow us, our 
security detail traveling from Tripoli to Benghazi, to take 
weapons with them, or did they have to rely on the limited 
weapons that were available to them in Benghazi?
    Mr. Burns. Mr. Sherman, this is on the night of September 
11th?
    Mr. Sherman. This is when the Ambassador flew from Tripoli 
to Benghazi.
    Mr. Burns. I don't know the answer to that question. I can 
get it for you.
    Mr. Sherman. Please do get that, because this is a 
government that--has the Libyan Government restricted the 
number of security personnel that we can have on--at our 
diplomatic missions?
    Mr. Burns. I don't know if there are any particular 
restrictions, and in the Accountability Review Board report, 
the areas of inadequacy that are identified don't have to do 
with Libyan Government restrictions, they have to do with 
judgments that weren't made about increasing the number of 
staffing.
    Mr. Sherman. Okay. I'll ask you to simply answer for the 
record, but I believe that the Libyan Government has not 
granted us the right to use our Air Force over their airspace 
to defend our diplomats in the future. Most governments 
wouldn't, but here's a government that can't control its own 
territory.
    [The information referred to follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Sherman. As a final comment I'll point out that the 
rebels in Syria include some excellent human beings and also 
include some elements that are just as bad as those who 
attacked us in Benghazi, and we should be careful that just 
because Assad's a bad guy, that doesn't mean all of his enemies 
are good.
    I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Sherman.
    Mr. Rohrabacher, who is the chairman of the Subcommittee on 
Oversight and Investigations, is recognized.
    Mr. Rohrabacher. Thank you very much.
    We have several areas that just need to be clarified here, 
and I would just like to say that when you seek clarification, 
and accountability, and perhaps correction of policy that led 
to a bad result, to automatically claim that people who are 
engaged in that are involved with partisan politics is not--is 
itself a partisan attack. So let's just get to some of these 
things.
    We've been talking about why this happened, and there has 
been talk about budgets. And I want to identify myself with the 
remarks of our chairman, who said, yes, there are lots of 
things in the budget that can be reprioritized. And I'm waiting 
for my colleagues on the other side of the aisle to address the 
chairman's suggestion: If we're spending $1 billion on global 
warming in this budget, wouldn't it be more better--wouldn't it 
be better for all of us and more faithful to those people 
serving us to allocate those funds for security if we think 
there is a security problem, rather than for global warming, 
which is not necessarily the purview of the State Department?
    But in terms of--and we have to remember that Secretary 
Lamb, Assistant Secretary Lamb, stated, and emphatically, 
because it was my question, and I wanted to get a specific 
answer, were budget considerations any part of your decision as 
to what level of security they should have at the Benghazi 
consulate, and her answer was an emphatic no, no.
    So there must be policies then that we need to look at to 
see, if this didn't result from budget considerations, why did 
we end up having it? It was obviously a bad call on her part. 
And just let me say, she has given this country, I think, 20 
years of decent, good service, and I am not about to sling mud 
at her. She maybe made a bad call. She has made 20 years of 
good calls. We are discussing some of those decisions today. 
And, Ambassador Burns, you have suggested that even adding a 
few extra than what she suggested was necessary probably would 
not have deterred this terrorist attack.
    So in leading up to it, we have got those questions. But 
then, as the terrorist attack was happening and immediately 
thereafter, I am sorry, Mr. Ambassador, but your statement that 
the President and Secretary Clinton made clear that it was a 
terrorist attack right afterwards is not true, it is not 
accurate. I mean, the President and high-level officials of 
this administration immediately after the attack and for days 
afterwards, an overwhelming part of their discussion of the 
issue dealt with movie rage about these Muslims being upset 
about portraying Muhammad in a bad way in some movie on 
YouTube, a huge amount of their time, and almost nothing was 
said by them, except enough so that you could quote it now, 
about terrorism and how the deaths there were carried out by 
professional and very well organized and trained terrorists.
    Now, about afterwards and how we are going to come to grips 
with this. It was a terrorist thing, that is acknowledged now. 
Are we tracking down, as the Secretary of State pledged, are we 
tracking down these terrorists, finding out who they are, is 
that happening now?
    Mr. Burns. Yes, sir, it is. We are absolutely committed to 
using every resource of the U.S. Government.
    Mr. Rohrabacher. And what groups have we found were guilty 
of this?
    Mr. Burns. Well, sir, the FBI is leading the investigation, 
and I am sure in a different setting they can brief you on 
where things stand. All I can tell you is that the State 
Department is supporting very actively what the FBI is trying 
to do. I was in Libya in September after the Benghazi attack to 
push the Libyan leadership to cooperate in the investigation. 
Ambassador Larry Pope, our Charge on the ground in Tripoli, 
pushes every day.
    Mr. Rohrabacher. Well, let me ask a question on this.
    Mr. Burns. I was in Tunisia also, Congressman Rohrabacher.
    Mr. Rohrabacher. Okay. Well, it is very easy to go up and 
ask a government, say, can you cooperate with us? Oh, of course 
we are going to cooperate. Let me ask about our own 
investigation. The night of the attack--obviously our people 
weren't the only ones killed and wounded--did our intelligence 
investigators or intelligence operatives in that area manage to 
go to the local hospitals and to question those people who were 
coming to the hospitals with bullet wounds that night?
    Mr. Burns. I don't know that they were able to that night, 
sir. Their preoccupation was trying to deal with----
    Mr. Rohrabacher. Well, what about the next day?
    Mr. Burns. Well, sir, as you know, by the next morning the 
American personnel in Benghazi had been evacuated to Tripoli.
    Mr. Rohrabacher. And all of our intelligence operatives 
were gone and didn't? You know, I will just have to tell you, I 
have been reading some of the classified information and I will 
just tell you that I do not believe that what we did was 
adequate, and what we are doing now is not adequate to tie this 
down to specific terrorist organizations. And we should be 
holding those people accountable and tracking them down and 
seeking justice for those people who we have lost. And with 
that said, I do not believe that holding this administration 
accountable for its mistakes and trying to find ways of 
correcting bad policy is in any way a partisan attack.
    Thank you very much, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Engel, the Subcommittee on the Western Hemisphere 
ranking member, is recognized.
    Mr. Engel. Thank you, Madam Chairwoman. And let me first, 
before I make my remarks, I would just like to comment on two 
of my mentors and friends who will not be coming back the new 
Congress. And I want to start with Mr. Berman, since I will be 
taking over his duties as ranking member of this committee 
starting with the new Congress.
    I want to say, Mr. Berman, Howard, that we are going to 
miss you. And your steady hand at the helm is something that we 
have all been aware of and we have all appreciated through the 
years. Your common sense on the issues, your hard work, and 
your collegiality is something that we will miss, and want to 
just express my very best wishes to you. I hope I can do as 
good a job as you have done, and I look forward to being in 
touch with you.
    And, Mr. Ackerman, my New York buddy, we have known each 
other for a long, long time, and we served in Albany in the 
State legislature together. I think your remarks before were 
right on the money and we will miss your intellect, your wit, 
your hard work. It has been a pleasure being part of the New 
York delegation with you, and I know that we will continue to 
be in touch, certainly in New York for sure.
    Let me say, first of all, welcome, Ambassador Burns. You 
have a long and distinguished record at the State Department. 
We appreciate the work that you have done.
    And, Mr. Nides, I have known you for a number of years, 
since I have been in Congress, in a number of different 
responsibilities. You keep getting promoted so you must be 
doing something right as well. But we appreciate the work that 
both of you are doing. I know it gets a little nasty here 
sometimes, but I think some of my colleagues don't really mean 
to be mean; they just get very emotional. We do appreciate your 
work.
    Let me say this. You know, one of the reasons why I love 
this committee is because I believe that foreign policy needs 
to be bipartisan. When I have taken CODELs around the globe, 
and I have led many of them when I was chairman of the Western 
Hemisphere Subcommittee, I found that the differences between 
Democrats and Republicans were very, very small when it comes 
to international events and things that happened. I have never 
had any restrictions on anyone in my CODEL for speaking to 
foreign leaders, heads of state, and never have been 
embarrassed, because we all understand that we are Americans 
and we have a common bond. And that is one of the reasons why I 
always enjoy this committee.
    But it really pains me when I see some trying to make 
partisan hay on what happened in Benghazi. I think Mr. Romney 
did it shamefully during the campaign. And I think that in 
times of crisis we need to pull together as Americans. Our 
Ambassador was killed and three other patriots were killed. I 
don't think either side should try to use it for partisan 
political purposes. I think this kind of ``gotcha politics,'' 
the American people are really turned off by.
    And I want to say, I said this before in this committee, 
that Barack Obama was no more responsible for what happened in 
Benghazi than George W. Bush was for 9/11 or Ronald Reagan was 
when more than 200 Marines were murdered in Beirut. It doesn't 
happen on anybody's watch. Terrible things happen, and we need 
to try to fix them. And I look at this report, the 
Accountability Review Board, as something that makes an attempt 
to do that. I don't care if the administration officials called 
it terrorism or didn't call it terrorism. I have seen things 
where President Obama used the word terrorism the day after it 
happened.
    But that is not important. What is important is that there 
should be no more Benghazis. That is why we are having this 
hearing and that is why we have the plan; 29 points, and 
Secretary Clinton has accepted them all, and good for her. She 
has, of course, appointed a new person--Mr. Nides, I know that 
is you--who is really going to look at this. And I am very, 
very happy that you are going to lead this task force.
    But, you know, Congress has its obligations too, and we 
have to put our money where our mouth is. If we are going to 
want to make sure that our diplomats are secure, then we have 
to pony up the money. You know, it is very easy, and you hear 
rumblings in the Congress about cutting back and cutting back 
and ``Let's cut foreign aid,'' and ``Let's cut foreign 
security,'' and ``Let's cut diplomatic security''; it is very 
easy to say that. You know, ``We have pressing problems here, 
who cares about what happens overseas?'' I have heard people 
say that as well. Well, that shouldn't be. We need to care and 
that is what we are doing.
    So let me say this. According to the CRS, Congress has 
underfunded State Department diplomatic security by $600 
million under the request for the last 3 years. The House 
funding level was closer to $0.75 billion below that. The ARB 
observed that funding restrictions have led State to be a 
resource-constrained rather than a mission-driven organization. 
The report continues, this report, the ARB, that the solution 
requires a more serious, and I am quoting, ``and sustained 
commitment from Congress to support State Department needs.''
    So let me ask you this: How would the $1.4 billion 
requested in the increased security proposal address the ARB's 
concerns? Will the additional resources fill staffing shortages 
due to demands in the frontline states? And how will the 
proposal be sustained after Fiscal Year 2013?
    Mr. Nides. Thank you, Congressman. We made four decisions 
quickly. One was that we were going to ask for some additional 
money in 2013 through our budget request, which we did, which 
includes the $1.3 billion. That includes the additional Marines 
that we have asked for, more money for security, for diplomatic 
security, and for help with building construction. So we did 
that out of the 2013. We also did the ISAT teams, as you are 
aware, with the DoD and State. We went out to the 19 posts 
around the world, the high-risk posts, to evaluate. We intend 
to take those ideas and come back as it relates to the 2014 
budget, which you know we are in the midst of doing as we 
speak. So the $1.3 billion addressed what Secretary Clinton 
believed and the President believed was an immediate need 
today. But I want to be clear to all of you, we intend to come 
back to the Congress as relates to 2014 to lay that out for you 
as well. Thank you.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Engel.
    Mr. Royce, the chairman of the Subcommittee on Terrorism, 
Nonproliferation, and Trade, is recognized.
    Mr. Royce. Madam Chair, I would just like to begin by 
acknowledging the role that you have played in leading this 
committee. You have always brought energy and a smile to this 
committee, and we look forward to working together next year on 
the committee. I would also like to wish Howard well as he 
moves on to the next chapter. And I would like to say to both 
of you that this committee and the institution is better 
because of the service on your part, the leadership on your 
part.
    And we look forward to Secretary Clinton testifying next 
year, or next month. And I think all of us want to make sure 
that at the end of the day our diplomats are safer. And I look 
forward to working with Mr. Engel and with all of the members 
here. We look forward to making certain that something like 
this does not happen again.
    But part of that is making the right policy decisions. Part 
of that goes to policy. And if we look at some of the 
observations that our Ambassador Chris Stevens made, he knew 
that Libya had become a cauldron of weapons, of jihadists, of 
violent ideology. He called it a security vacuum that had 
developed there. And it is discouraging, frankly, to read his 
communiques warning of the consequences of this, and 
discouraging, I think, to see that there wasn't any credible 
contingency plan in place. An 8-hour firefight, truly tragic, 
without the ability to rescue our personnel during those 8 
hours. And the upshot is this report, which finds a systemic 
failure by the State Department at senior levels.
    But there are other policy questions about what created 
this environment. And that security vacuum that we are talking 
about, that was compounded by certain policy choices that led 
to this tragic day, policies that fed this instability in 
Libya. Here is a recent New York Times headline: ``U.S.-
Approved Arms for Libya Rebels Fell into Jihadists' Hands.'' 
And it reports, ``The Obama administration secretly gave its 
blessing to arms shipments to Libyan rebels from Qatar last 
year . . . Within weeks of endorsing Qatar's plan to send 
weapons . . . the White House began receiving reports that they 
were going to Islamic . . . groups.'' This was a policy choice 
on the part of the administration. They decided not to send 
arms, but to use Qatar as a proxy for this purpose. But in 
turning the keys over to the Qataris we were turning it over to 
someone whose views were diametrically opposed to our own.
    I remember the Libyan transitional authorities screaming at 
the time about the militants that the Qataris were picking in 
this fight, and what those militant jihadists would ultimately 
do as a result of receiving those arms, of being empowered by 
Qatar. I was warning the Secretary about this weapons flood 
from Qatar. The Times reports that the subject of the Qatari 
arms shipments dominated at least one of the deputies meetings, 
which I assume, Ambassador, you probably attended, probably 
participated in.
    And so I was going to ask you, Secretary Burns, the 
Accountability Review Board had a narrow focus here, they 
didn't address some of the larger questions about policy, 
especially the policy in terms of arms that flooded that area 
on the part of the Qataris. Wouldn't you agree that empowering 
Qatar in this regard was a poor policy choice?
    Mr. Burns. Well, Congressman, there was a serious concern 
during the Libyan revolution and in its aftermath about not 
only the arms that were in abundance in Libya, but also the 
insecurity across Libya and the difficulty that the 
transitional government had in restoring security and 
developing security.
    Mr. Royce. No, I understand that. But with our tacit 
approval you had 18 weapons shipments, 20,000 tons of weapons, 
and basically the policy choice that the Qataris would supply 
them and we would allow them to go through. And those weapons 
went to the most hardcore jihadist elements. So now those 
weapons are spilling into Mali, where al-Qaeda affiliates have 
taken up shop, imposing Sharia law. I mean, this country has a 
history with this issue, and the decision here has been made 
again. And I just want your answer to that. You were cognizant 
of this, I know. And Ambassador Stevens was approached on this. 
He was rebuffed when he told an American arms dealer don't do 
that. But when the dealer applied to sell Qatar $200 million in 
arms, that application was approved.
    Chairman Ros-Lehtinen. Thank you, Mr. Royce. I am sorry, 
but we are out of time.
    Mr. Royce. Approved by State.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Royce. Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Mr. Meeks, the ranking member on the 
Subcommittee on Europe and Eurasia, is recognized.
    Mr. Meeks. Thank you, Madam Chairman. I would just for the 
future chair, and I appreciate his coming and looking forward 
to working with him, and look forward to working with Mr. 
Engel, and want to say thank you to both our outgoing chair and 
of course to our ranking member, who we are going to miss 
dearly, and my good friend Gary Ackerman.
    And I just had to follow up with, I know the debate was 
before when we were talking about Libya there was the argument 
that we needed to arm the rebels. It is the same kind of 
argument that is going on right now in Syria, some saying that 
we have to arm the rebels. And so, I don't know. But anyway, 
you know, I have often said that over the years our diplomats 
are really the unsung heroes of United States security. They 
should no longer be unsung. The attacks on our mission in 
Benghazi should compel Congress to better recognize that our 
diplomats are critical to our Nation's security and that we 
must do better to ensure their security. It is time for us to 
acknowledge not just with our words, but also with our deeds 
the importance and the danger some of America's finest public 
servants face abroad. With over 80 high-threat posts operating 
at any given time, our diplomats are often in the same kind of 
harm's way as our military is, without the same kind of body 
armor and firepower to protect themselves.
    We here in Congress have a role to play in giving them the 
resources, respect, and attention they deserve. I can't tell 
you how many times that I travel and I meet with an Ambassador 
who is trying to juggle their budget. They are trying to figure 
out, and so oftentimes they want to say, often they request, 
they want to figure out here is what they have. And they say, 
if there is one thing that Congress can do for us is to make 
sure that we have the additional resources. And they do the 
best that they can to try to stretch that budget as much as 
they can. And I hope that, you know, we don't come back here 
next year and we start shortchanging them for what they need.
    And I appreciate what the ARB has come forward with. To me, 
when I look at your report, you are coming with facts, you are 
looking, suggest there were some mistakes made and here is how 
we are going to correct them and here is how we want to move 
forward. The Secretary of State said, I take full 
responsibility, so there is no ducking and there is no hiding 
or anything of that nature. And so I would hope that we could 
move on and ask, and I have a few questions I want to ask, I 
hope it is in the vein of what Mr. Ackerman was talking about.
    So, for example, we have focused on Benghazi. I would like 
to know what was the status, though, before Benghazi in 
Tripoli. Did we have any additional security in Tripoli? Was 
there a difference between the kind of security we had? I know 
one was just a consulate, the other was the Embassy, et cetera. 
Was there a different request, et cetera? Could you tell me 
that first?
    Mr. Nides. As you know, the mission in Benghazi was a 
temporary facility. As you know, that is where Chris Stevens 
started. He felt comfortable there. That was a temporary 
facility. The facility in Tripoli was our Embassy, and it had, 
obviously, additional security in Tripoli than we did actually 
have in Benghazi. It was larger, we had more people there, and, 
obviously, the ratio between the numbers of people we have and 
security that were on the ground.
    Mr. Meeks. So now going, you know, with the debate that we 
have going on now in Congress, we could have sequestration that 
takes place. And if sequestration takes place there are across-
the-board reductions. What does that mean to security at our 
Embassies and for our Ambassadors?
    Mr. Nides. I am calling on all of you to fix that for us so 
we don't have sequestration. But if we do, we will have to make 
some really substantial cuts and it will hurt, it will hurt not 
only diplomatic security, but make no mistake, it is not just, 
as to your point, not just Benghazi. We have over 275 posts, 
Embassies and consulates around the world which dedicated 
diplomatic security are protecting every day, and 99 percent of 
the time we get it right. We want to be at 100 percent. But you 
are absolutely right, we need the resources. And we hope that 
we won't be facing massive cuts through sequestration, which I 
know I probably speak for most of you around on this committee 
that hope that won't occur as well.
    Mr. Meeks. Now, in your report, and I don't recall, I think 
Benghazi, as you said, was special, meant it had a nonstatus. 
Do we deal now in any comprehensive manner with any other 
missions that we have that has a nonstatus as opposed to 
something that has a status? Should it be treated differently?
    Mr. Nides. That is actually one of the recommendations of 
the ARB, that we look at that. It is clearly an issue that we 
need to determine. There are very few of those types of 
facilities, but we need to look at it. That is one of the 
reasons the Secretary directed us to take these teams around to 
the most high-risk posts, because it is not just the temporary 
facilities, but we are dealing with a new normal, so we need to 
look at each and every one of those posts and make the 
determination on the security on the ground.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Meeks.
    Mr. Chabot, the chairman of the Subcommittee on Middle East 
and South Asia, is recognized.
    Mr. Chabot. Thank you Madam Chair. I thank you for your 
work in arranging for this hearing. I know it has been very 
difficult to get administration witnesses to testify before 
this committee, not just on this matter but quite a few other 
things as well. And your relentless efforts to schedule this 
hearing are greatly appreciated by a lot of us.
    I also want to take a moment to thank you and say job well 
done. I don't know what the committee's schedule is going to be 
for the remaining days of the 112th Congress, and we are not 
sure how long we are necessarily going to be around. So in the 
event that this may be our last formal hearing of the year I 
just wanted to commend you for the great service that you have 
performed for this committee and our country as chair of the 
committee. And I thank you and your staff for the work and the 
many courtesies that you have extended to both me and the other 
members and to our staffs on both sides of the aisle, and look 
forward to continuing to work with you hopefully for many years 
to come.
    And I don't want to get into a long thing relative to some 
of the other comments I have heard from the other side of the 
aisle, but I have to say that in denouncing alleged 
partisanship I don't know that I have heard more partisan 
statements from some of my colleagues, many of whom I have 
great respect for and wish the best in the future because some 
will be leaving. But I think what this committee is attempting 
to do is to find out what went wrong, why, and prevent these 
types of things from happening again. You know, we lost the 
lives of four very patriotic Americans, and I think it is 
appropriate for us to look into these matters.
    And, you know, these events in Benghazi are absolutely 
tragic, no question about that. Ambassador Stevens was known to 
many members and staff, both before and during his 
ambassadorship, and he was thought by all, I believe, to be one 
of our most able diplomats. I had the opportunity to visit with 
him in Libya a little less than a month before he and the three 
other outstanding Americans were murdered in Benghazi. His 
enthusiasm for the job at hand was immediately evident. He was 
excited about the opportunity to help a nation newly freed from 
decades of brutal dictatorship, and his death was not only a 
terrible blow to his family and Nation, but a terrible blow to 
those who seek to build a new democracy and a vital economy and 
to restore fundamental human rights for the Libyan people. We 
have many patriotic Americans like Chris Stevens and his 
colleagues serving around the world and oftentimes they serve 
in dangerous regions, sometimes separated from their family and 
in many cases living in a very restricted existence because of 
security threats. What we often take for granted, like freedom 
of movement and relative safety from those who would do us 
harm, they often live without.
    Today we are here to review what happened, as I said, in 
Benghazi, and why, and what we can do to protect our diplomatic 
personnel stationed abroad in the future. And as has already 
been mentioned, the report that we have all had an opportunity 
to see does state that there was no protest at the American 
facility in Benghazi prior to the attack. And I know many 
members, particularly on this side of the aisle, would like to 
have more answers as to why exactly the White House and the 
State Department in the days following the Benghazi attack 
chose to pursue a strategy that was ham-handed at best and a 
cover-up at worst. I will focus my question on the findings and 
recommendations of the report with the hope that one day soon 
we will get a straight answer from the administration on the 
matter of the administration's early-on insistence for weeks 
that terrorists were not to blame for the murders of our fellow 
Americans but, you know, some video was.
    Ambassador Burns and Secretary Nides, we have reviewed the 
report and we have shifted through a lot of paperwork and that 
sort of thing that the Department provided us. We have seen 
cables where security officers on the ground express 
frustration at the difficulty in getting the personnel they 
believed they needed to protect American diplomats and 
property. And we now know that management of security 
personnel, especially the assignment of DS agents on very 
short-term duty, virtually guaranteeing very limited 
institutional knowledge, was grossly inadequate. We clearly had 
a problem in Libya, and it is probably fair to say that the 
Department's shortcomings in addressing diplomatic security 
issues are not isolated to Libya. The Government Accountability 
Office has called on the Department on a number of occasions, I 
believe, to conduct a strategic review on security mission and 
resources.
    And in light of the Benghazi tragedy could you discuss, 
relative to the resources that are going to be necessary in 
this issue, is there a timeline on when we are actually going 
to get this? And in the other Embassies around the world that 
are in security-challenge areas, are these types of things in 
all likelihood present and need attention in other areas as 
well? Either one of you.
    Mr. Nides. As you know, as I mentioned earlier, we did take 
a very aggressive look with DoD and the State Department, sent 
these teams out immediately to look at every high-risk post. 
That is what Secretary Clinton ordered us to do. We are now 
bringing back those recommendations. There are many, many 
recommendations. We are ordering them through. She has given us 
very clear instructions on when she expects these results to be 
in. And we are going to come back to this body to get either 
funding that we need to do them or use existing funds to 
actually address those issues. And the answer to that is yes.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Chabot.
    Mr. Chabot. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Mr. Carnahan, the ranking member of 
the Subcommittee on Oversight and Investigations, is 
recognized.
    Mr. Carnahan. Thank you, Madam Chairman. I just want to 
take a moment at the beginning of my remarks and say thank you 
to you and to our ranking member, Howard Berman, for their 
service during this Congress, your friendship, your work. Also 
really to wish well our colleagues in this next Congress, the 
entire committee, but particularly Ed Royce and Eliot Engel as 
they take over the leadership of this committee. And this next 
Congress is going to have a full plate. I think the hearing 
today is really just a preview of that.
    I also want to acknowledge the work and leadership of 
Secretary Clinton. She has aggressively, her entire team, and 
thank you for your service, all of our diplomats everywhere, 
for the Secretary's leadership in embracing all 29 of the 
Board's recommendations and her strong commitment to have the 
implementation of all the recommendations well underway even 
before the next Secretary of State is in place.
    I also want to, I guess, admonish my colleagues on the 
committee. There is a long tradition of bipartisanship in this 
committee, how we should be standing side by side when we are 
dealing with attacks on our people overseas. It really cheapens 
that to make it into some kind of a gotcha game or to try to 
make it into some conspiracy to dupe voters in November by the 
words used or the causes of this horrible tragedy that happened 
in Libya. So this is really about, I believe, our foreign 
policy, the very core interest of our country, how we are seen 
around the world, our national security, our economic success, 
our fundamental values. That is what it is about.
    And it is bigger than Libya. We are going to see this in 
countries across the globe, country by country, the same kind 
of repeated challenges. We have to stay focused on that. Let's 
not backslide into pettiness from either side. Let's really 
focus on what needs to be done.
    And I guess for our witnesses here today really just two 
quick questions. Because of this very changing nature and these 
increased demands that we are seeing, is there any additional 
country-specific criteria the State Department is considering 
to determine these additional security needs at our posts? And 
secondly, what steps should be taken with host countries to 
honor commitments to the Vienna Convention to ensure that it is 
not an impediment to our security and to guarantee better the 
safety and security of our diplomats?
    Mr. Nides. So let me just answer the first question. As I 
point out in my testimony, for 200 years we have relied on the 
Vienna Convention. And that is something that we have to 
continue to rely upon, and if we don't we can't be in many of 
these places, because at the end of the day we cannot provide 
our own security enough to protect ourselves without these host 
governments. And in most, if not all of those countries that 
works. But in this new environment, as we call the new normal, 
especially in new governments that are standing up, the 
Secretary implored us to go to visit those countries with the 
Defense Department and ask that question, which is the division 
between their desire to protect us and their ability to protect 
us. So the answer to that is we are looking at each and every 
one of these countries to make that determination and determine 
the risk factors that exist and do we have it right as we look 
forward to making sure that we are protecting ourselves 
appropriately.
    Mr. Burns. All I would add, Congressman, is that this is a 
reality that we are going to have to deal with for some years, 
and not just in the Middle East, but it is particularly true 
there with all the revolutions and transitions that are taking 
place. It is post-revolutionary governments that are going to 
have a very difficult time building security institutions that 
work, and we are going to have to take that into account and 
adapt to it, as Tom suggested.
    Mr. Carnahan. Thank you. I yield back.
    Chairman Ros-Lehtinen. Thank you. And thank you again for 
that family photo that is in some of our big photos here, Russ. 
Thank you. Was that your great grandfather?
    Mr. Carnahan. Grandfather.
    Chairman Ros-Lehtinen. Grandfather who served on the 
committee.
    Before I recognize Mr. Wilson for his questions I would 
like to advise our members that we expect a short vote series 
around 2:45 and that Deputy Secretaries Burns and Nides have 
kindly agreed to remain so that we may continue the question-
and-answer period for the remaining members after the vote. 
Thank you, gentlemen.
    And with that, Mr. Wilson of South Carolina.
    Mr. Wilson of South Carolina. Thank you, Madam Chair. And, 
Madam Chairwoman, I want to thank you for your extraordinary 
leadership. You have been such a strong proponent on behalf of 
the American people. Additionally, I have certainly appreciated 
the bipartisan cooperation with Mr. Berman. Both of you have 
just come across so well.
    I look forward to the leadership of Chairman Royce. He and 
I have a shared interest in promoting a better relationship, 
and particularly with the very important country of India, the 
largest democracy on Earth. And so I am really excited about 
his leadership. And then I share the appreciation of 
Congressman Engel. He and I have gone on CODELs together, and 
indeed there will be a bipartisan angle to this committee with 
Congressman Engel. So this is all positive.
    I am grateful, Secretary Burns, Secretary Nides, for you 
being here today, and I look forward to asking some questions. 
I do want to express again my deepest sympathy to the heroic 
Americans that were killed at Benghazi. We should never forget, 
and we want to send our deepest sympathies to the families of 
Ambassador Chris Stevens, Sean Smith, Glen Doherty and Tyrone 
Woods. These truly heroic Americans lost their lives in 
Benghazi to a terrorist attack, but their dedicated service 
will always be remembered by the American people.
    As we are into the Accountability Review Board evaluation, 
the Pickering report, there is an indication, directly the 
quote was, ``In the weeks and months leading up to the attacks 
the response from the post, Embassy Tripoli, in Washington to a 
deteriorating security situation was inadequate.'' And from 
each of you, what was the response and what steps have been 
taken? And, indeed, could this tragedy have been averted?
    Mr. Burns. Well, Congressman, clearly, as the ARB report 
concluded, there were inadequacies. There was not an active 
enough response to requests that were made from post. Just to 
be clear, I think typically those kinds of requests, and it was 
true in this case, tend to come up toward the assistant 
secretary level in those bureaus, and the ARB was very clear in 
emphasizing the importance of us reinforcing shared 
responsibility in those areas.
    There was, and I draw a distinction between that and the 
more generalized concern about insecurity in Libya that I 
mentioned before, all of us, including the Secretary, who 
traveled to Libya over the course of the last year or more, 
were concerned about the importance of the Libyan interim 
government building security institutions without which it 
would be extremely difficult to make a successful political 
transition or to rebuild the economy. And that broad issue was 
something that concerned many of us, including the Secretary.
    On the specific issue with regard to security requests, the 
ARB was quite clear in saying that there was an insufficient 
response in those areas, there were mistakes, and serious and 
systemic problems which are unacceptable, as I said before, and 
which have to be addressed to prevent a repetition of this kind 
of attack and this kind of tragedy in the future.
    Mr. Wilson of South Carolina. And specifically the chairman 
of the Armed Services Committee, Buck McKeon, has asked a 
question, and that is, to anyone's knowledge has the Department 
of State or any Federal agency requested additional U.S. 
Military forces to augment security of U.S. personnel in Libya 
prior to the attack?
    Mr. Burns. The ARB report, I think, addresses the issue, I 
mean the specific issue of what might have been done on that 
night and reaction to the attack, and its conclusion is that 
there was simply not enough time. Given the fact that even 
though this incident in Benghazi, the tragedy in Benghazi, 
unfolded over a period of 8 hours, that the intensive attacks 
were really focused on two periods, less than an hour on the 
special mission compound at the beginning of this ordeal, and 
then another very intensive attack around 5:15 the following 
morning on the so-called annex. And so the judgment of the 
Accountability Review Board was that there simply wasn't enough 
time to make the use of U.S. military force from outside Libya 
effective.
    Mr. Wilson of South Carolina. And it concerns me, too, 
there is a foreign emergency support team, a FEST team, but yet 
it was not requested, it was not provided. That just is really 
just tragic to me.
    Mr. Burns. Well, typically, Congressman, in my experience, 
FEST teams, foreign emergency support teams, are actually 
deployed after a terrorist attack, and they are generally 
deployed when a diplomatic facility has been attacked and has 
lost communication capabilities and other capabilities. So a 
FEST team comes in to augment them. But generally they come 
after an attack has taken place, over the course of my 
experience.
    Mr. Wilson of South Carolina. Well, I would certainly hope 
that, and I want to thank you for what you are doing, but my 
goodness, I appreciate Foreign Service Officers, your courage 
of service, but we want the best security possible. And I 
appreciate whatever efforts that can be made. Thank you.
    Chairman Ros-Lehtinen. Thank you. The committee will be in 
recess and we shall return after the votes. Thank you.
    [Recess.]
    Chairman Ros-Lehtinen. The committee will now come to 
order. I thank our witnesses for coming back, and I thank the 
members also for returning. And we will begin our question and 
answer period with Mr. Higgins of New York.
    Mr. Higgins. Thank you, Madam Chair. Ambassador Burns, you 
had provided in your testimony, you had said that I know that 
diplomacy by its very nature sometimes is practiced in 
dangerous places. And you quoted Secretary Clinton as saying 
that our diplomats cannot work in bunkers and do their jobs. 
When America is absent there are consequences, our interests 
suffer and our security at home is threatened. When I hear 
about attacks on American diplomats they often take me home.
    John Granville was a kid from my community. John was a 
graduate of Canisius High School in Buffalo. He attended 
Fordham University, and Clark University in Massachusetts with 
a graduate degree in international relations. John was a 
Fulbright scholar. He served as a volunteer in the Peace Corps 
and he became a diplomat for the United States Agency of 
International Development. John was working with a largely 
Christian community in southern Sudan right outside the City of 
Juba to prepare them for elections by bringing in thousands of 
solar powered radios so that the folks in that region of the 
Sudan would have information about the outside world in 
preparation for elections for independence. As you know, 
Southern Sudan is the newest country in the world.
    On January 1, 2008, New Year's Day, it's 6:45 in the 
morning, I received a call from John's mother, who informed me 
that the night before John was killed. He was actually murdered 
by a gunman while driving home from the British Embassy for a 
New Year's party in Khartoum. John was ambushed by two gunmen 
who stopped their car in front of his; John was shot in the 
neck and the chest.
    The attack followed warnings, the attack followed warnings 
by the United Nations that a terrorist cell in Sudan was 
planning to attack Westerners. No one blamed the President, 
nobody attacked the National Security Adviser. What John's 
mother wanted in the response from our Nation and our community 
was: Let's get to the bottom of this so it will never happen 
again.
    It is my understanding that under the 1961 Geneva 
Convention on Diplomatic Relations the host country, the host 
country is responsible for the security of our Embassies, and 
that the primary focus of our Marine Corps Embassy security 
group is to protect classified information at the facility with 
the protection of the personnel a secondary focus. It seems to 
me that perhaps if we really want to get to the heart of this 
thing we need to focus in on that policy. And the policy I 
believe deserves reconsideration. Both of you had made 
reference to there is a new normal. There are some 33 countries 
in the world that are defined by our State Department as places 
where Americans shouldn't travel. Diplomacy is dangerous work. 
Those who do it are courageous.
    So I would like to ask each of you if in fact we as a 
Nation, Democrats and Republicans, should be seeking to change 
the 1961 Geneva Convention on Diplomatic Relations to more 
closely and more directly take on a policy that assists our 
people in these very, very difficult places, or would that 
adversely affect the purpose for our diplomatic presence in 
those places, including and especially those toughest places?
    Gentlemen.
    Mr. Burns. I would be glad to start, Mr. Higgins. I think 
the issue here, as both of us have mentioned before, is not so 
much the Vienna Convention itself, it is not even so much the 
will of certain host governments to be able to fulfill the 
obligations of the Vienna Convention and protect foreign 
diplomats on their soil. It is a question of their capacity. 
And especially in countries that are going through post-
revolutionary transitions, as we see in Libya, as we see in 
other parts of the Middle East today, there is a big question 
mark about their ability to do that and how quickly they can 
develop the kinds of security institutions on which they can 
rely for security in their country and on which our diplomats 
and other foreign diplomats can rely.
    So that is what we have to take into account now as a part 
of this review. I am stimulated not just by Benghazi but as we 
look at a landscape that is changing very fast in the Middle 
East and in other parts of the world, we are going to have to 
adapt our approach to diplomatic security to take that into 
account.
    Mr. Higgins. Thank you. Mr. Nides?
    Mr. Nides. And just briefly, you are right as relates to 
our desire to add additional Marines. It is not so much the 
Marines doing security per se, but it is as a deterrent. In 
working with DoD we are determining which countries that would 
obtain, as you know, we currently have 150 countries that have 
Marines in them, we have asked for an additional 35 
detachments. We are working closely with the Defense Department 
to achieve that goal, but it is important to know that the 
security is in the hands of our Diplomatic Security, this will 
be supplemented with that deterrent of having Marines on the 
premises.
    Mr. Higgins. Thank you, and thank you both for your 
extraordinary work.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Higgins.
    Judge Poe, the vice chair of the Subcommittee on Oversight 
and Investigations, is recognized.
    Mr. Poe. Thank you both for being here all day, since our 
early conversation this morning. During my lifetime I have been 
called a lot of things, but a diplomat is not one of them, but 
I will try to be as candid and nonoffensive as I can be about 
this whole situation in Benghazi.
    It seems to me that security was a problem, the report says 
security was a problem. I think that we ought to make sure that 
we are moving forward across the world, and I have been to a 
lot of Embassies as most members of this committee have; that 
we focus on making sure that the people in charge know what 
they are doing, not using militias but using the Marines. I 
have total confidence in the Marines. They can solve any 
problem we will let them solve. And they are a deterrent, Mr. 
Ambassador, as you said, that Marines, the word brings fear and 
trepidation into the souls of many people who do not like us 
throughout the world. It seems to me they would do a better job 
protecting America and American interests than hired guns from 
some country like the Libyan militia.
    My focus is on two things. One, the day after this event 
occurred, September 12th, there was a group, terrorist group, 
Ansar al-Sharia, that took credit for the attack against the 
Ambassador and the other Americans that were murdered. Of 
course we all know what took place took a while for the 
administration or the official word to say they were 
terrorists. Regardless of how long it took, this group took 
credit for the murder, the homicide, and they were glad they 
did it.
    My first question is do we know what terrorist group or 
groups, here 90 days later, are responsible for the attack on 
the Ambassador and the compound?
    Mr. Burns. Congressman, we have made some progress in the 
investigation. I don't think we have a complete picture yet 
about exactly which terrorists were responsible, but we are 
developing a better picture of that. And the FBI is leading the 
investigation, a number of other parts of the executive branch 
are involved in this, too, and we would be glad to provide you 
a briefing in a different setting on exactly what the status 
is.
    Mr. Poe. Let me ask you another question. With the folks 
now in Libya that are in charge of our diplomatic mission 
there, have we told them be on alert for this group or that 
group or watch out for these guys? Any warnings, watch list, 
whatever you want to call it, about any specific Libyan 
terrorist groups that we should be more careful in dealing with 
or watching, and what kind of notice has been sent out from 
Washington to Libya?
    Mr. Burns. Well, our mission, our Embassy in Tripoli is 
extremely well aware of the various threats out there from 
extremist militias, from terrorist organizations; for example, 
al-Qaeda in the Lands of the Islamic Maghreb, which is trying 
to expand its role, and the threats that it produces across 
North Africa, including in Libya, and so our Charge, Ambassador 
Larry Pope, is very well aware of this and stays in very close 
touch with the Department, the intelligence community about 
those kinds of threats.
    Mr. Poe. I would hope that we would pursue and whoever is 
responsible that we track them down and hold them accountable, 
and I hope we hear that news as soon as possible.
    The other issue I want to talk about is weapons, guns and 
other weapons, rifles that are in the possession of different 
groups in Libya. There have been reports, and I don't know if 
they are accurate or inaccurate, that is why I am asking you 
all, that there may be a situation where the United States gave 
tacit approval, a wink and a nod, or looked the other way while 
guns were smuggled from Qatar, Qatar, I guess is correct 
pronunciation now, Qatar to Libya used by Libyan rebels. Is 
that--what about that, is that true, not true or we don't know?
    Mr. Burns. There were a lot of arms that flowed into the 
hands of various Libyan groups during the revolution as they 
sought to overthrow Ghadafi. We had real concerns during that 
period and we certainly have real concerns today about the 
number of extremist militias, well armed extremist militias in 
Libya who can threaten our people as they did in Benghazi but 
can also threaten the security of a Libya which is struggling 
to succeed in a political transition.
    Mr. Poe. Let me reclaim my time since I am nearly out of 
time. I guess my real question is we need to find out and we 
need to know, Americans need to know if those weapons that were 
used in the attack on our folks in Libya were weapons that the 
United States some way was involved in getting to Libya.
    The second part of the question is really a comment, we 
also need to know if those since Muammar Ghadafi met his maker 
that weapons have gone to Libya to be repackaged, if you will, 
by the militia and sent to Syria. Has the United States been 
involved of that, have knowledge of that, or is that just not 
an accurate statement? I think we need to track the movement of 
weapons.
    And out of time and maybe you could give me a written 
answer to this or direct me to a classified briefing on that.
    Chairman Ros-Lehtinen. Thank you, Judge Poe. Karen Bass is 
recognized. She is the ranking member on the Subcommittee on 
Africa, Global Health, and Human Rights.
    Ms. Bass. Thank you, Madam Chair. And also let me join in 
thanking you for your leadership over the last 2 years and also 
for our ranking member Mr. Berman. I know that many of my 
colleagues would agree that your departure from this House is 
really an example of us losing one of our House giants. So we 
will be sorry to see you leave and I would say the same for Mr. 
Ackerman. I will miss hearing your comments on this committee.
    I wanted to thank the leadership for convening this meeting 
and I want to thank the witnesses for taking their time to come 
out and be here with us here today. When we had the hearing 
last month the members of this committee really wanted to hear 
what the ARB was going to come back with before we rushed to 
any judgment. And I want to stress that I think that it was 
very important and it is very important that we have an 
objective assessment of what happened and I think you have 
provided that, but I really wanted to focus on what happens 
now, where do we go from here. And I wanted to ask a couple of 
questions, specifically wondering how you manage planning for 
Diplomatic Security when we are rather unpredictable in one, if 
and when we get a budget done and then what the level of 
funding is.
    And then also I wanted to know if you could comment if 
there are any new technologies or alternative protective 
measures that would be very useful in terms of how we protect 
diplomats, and to what extent if we had had any new 
technologies you think would be useful would it have made a 
difference in Benghazi?
    Mr. Nides. Well, let me just say as someone who is 
relatively new to the Department but has traveled to almost 
every hotspot in the world, the men and women who have 
protected us with Diplomatic Security are beyond heroic. I wish 
we could be here and say with 100 percent certainty nothing 
happens, but as you know it is not a risk free proposition, but 
I am every day amazed. Remember we have over 275 consulates and 
Embassies, many of them in very, very dangerous areas, where 
our Diplomatic Security are not only protecting our Ambassadors 
and staff, but USAID and like minded folks all over the world. 
So I just--your point is taken, which is we are having to deal 
with budgetary constraints, but at no time should any of us 
believe that the quality of those men and women who are 
protecting us is in any way diminished.
    Ms. Bass. Well, you know, one of the benefits of being on 
this committee is that we do have the opportunity of travel and 
frankly they help provide our protection as well. And so just 
wondering how you manage with that, do you shift funds from one 
to the other or what? 
    Mr. Nides. So what we are doing and one of the tasks that 
the Secretary asked us to do is to review exactly, especially 
in the high risk posts, to make sure in what we refer to as the 
new normal, host government's willingness and capability of 
protecting us. Do we have the right security footprint? Do we 
have the facilities? Do we have the ability to protect our 
people to the best of our abilities? And what we are doing now 
is looking at the resources we were given, moving those 
resources around appropriately to make sure that we are not 
putting our people in harm's way. As I said before, we get this 
right 99 percent of the time. And I knock on wood on that. We 
would like to be 100 percent right. But this, as you know, is 
not risk free for any of us, and so we are attempting to try to 
manage within the constraints which we have.
    As to a question of technology I would say that Diplomatic 
Security is working with every law enforcement agency in the 
world to make sure we are on the cutting edge and I think we 
are achieving that. Can we do better? Sure, I think every 
security agency could do better, but I believe, fundamentally 
believe in my core that they are at the top of the heap as it 
relates to the quality of their technology and ability to 
protect us.
    Ms. Bass. Is attrition in the Diplomatic Security Service a 
problem? And if so, what are you doing to address that?
    Mr. Nides. I think attrition at State Department generally 
is quite low. As you know, I guess they came out yesterday or a 
couple days ago, we are the third most liked place to work. 
Part of that is I think we treat our people with respect.
    Ms. Bass. The security part?
    Mr. Nides. Generally I think the whole State Department, I 
wouldn't divide it up between departments. I think one of the 
criticisms that the ARB did point out is our reliance on TDYs, 
on people who are coming to us for short periods of time.
    Ms. Bass. TDYs, temporary?
    Mr. Nides. Temporary employees. We have to address that 
issue, because that is one of the recommendations of the ARB 
that we examine the use of TDYs, again to remind people there 
are people who are coming in for shorter periods of time than a 
year or 6 months, and that is something we need to address. 
That is something Secretary Clinton has insisted that we 
address to make sure that we have the numbers and that is why 
in our new budget request we have asked for additional 
Diplomatic Security officials so we can lessen our reliance on 
TDYs.
    Ms. Bass. And where do the temporary employees come from?
    Mr. Nides. Most of them, if not all of them, are here, but 
again----
    Ms. Bass. They are State Department?
    Mr. Nides. Yes. They are not contract employees but they 
are moving around, and one of the criticisms in the ARB was 
that the people that we were moving in and of Benghazi weren't 
there for long periods of time. Obviously like any law 
enforcement officer if you are on the ground for a long period 
of time you build a team and expertise and contacts. And one of 
the criticisms of the ARB which we need to learn from is what 
happens if someone only comes in for 30 days and leaves? And I 
think that is something that we have to learn from and improve, 
especially in high risk posts.
    Ms. Bass. Thank you.
    Chairman Ros-Lehtinen. Thank you very much, Ms. Bass. Miss 
Schmidt of Ohio is recognized.
    Mrs. Schmidt. Thank you. Gentlemen, something has been 
troubling me all along, and that is that we knew from the start 
this was a terrorism event and yet for whatever reason we chose 
not to call it a terrorism event. I look at some documents and 
uncovered one that was dated September 12, 2012, at 6:28 a.m. 
From Freiburg, Benjamin D., on behalf of DS Command Center, 
sent 9/12, at 6:28 a.m.--I am reading the whole thing 
verbatim--to Steven Orloff, copy to DS Command Center, subject: 
Benghazi update. All com. The DS command center is sharing the 
following terrorism event, information for your situational 
awareness, please contact the DS Command Center directly for 
any follow up request for information. As 0500 Eastern Standard 
Time, the U.S. Mission in Benghazi has been evacuated due to 
ongoing attacks that resulted in the death of four chiefs of 
mission personnel, including the U.S. Ambassador to Libya, and 
three additional com wounded. At this time everyone had been 
evacuated to Tripoli and is receiving medical aid and awaiting 
further movement. This is an initial terrorist incident report 
from the DS Command Center. This information contained in this 
report is provided only for immediate situational awareness, 
additional reports may follow. Updating and correcting 
information, please protect accordingly. DS Command Center SBU. 
This email is unclassified. Presented by Bladow, Christopher 
R., page 1 of 1.
    My concern is this, we knew from the start that it was a 
terrorist attack, it was a terrorist event, and yet for 
whatever reason we chose to call it something else, a YouTube 
video. And I am troubled because it puts Susan Rice, the 
President and other officials in a bad light. I am also 
troubled because the soft message doesn't allow us to get to 
the root of the problem. The furthest thing is to blame a 
YouTube video somehow makes it appear that we are saying it is 
okay if we have someone of our people say something bad about 
another nation that it is okay for the nation to respond. I 
mean that is the kind of insidious message that is going on 
here. And I would like to know why when this came out just 
hours after the initial attack we called it something else.
    It is just a question.
    Mr. Burns. Ms. Schmidt, there is nothing that is okay about 
the murder of four of our American colleagues. This was a 
terrorist attack. Secretary Clinton, as I said before, was 
quite direct the next morning in talking about an assault by 
heavily armed militants on our compound. President Obama spoke 
to an act of terror. What was not clear at the time was exactly 
which terrorists were responsible, what their motives were, 
whether they were motivated in part by the sight of an armed--
of a mob coming across the wall of our Embassy in Cairo, which 
may have partly have been in response to the video that you 
mentioned. Just didn't know exactly what the motives were. But 
what there was no question about was that this was a terrorist 
attack.
    Mrs. Schmidt. It was never said a terrorist attack. It said 
an act of terror, is different than a terrorist attack.
    Mr. Burns. But, Ms. Schmidt, what I would add, as I 
mentioned in response to an earlier question, the officials who 
addressed this issue and the intelligence community specialist 
on whom they relied were focusing on trying to be as factual as 
possible and they were also focused on action in this period 
because, as I mentioned, they were also dealing with the 
reality, all of us were, where you had mobs coming over the 
walls of our Embassies in Cairo, in Tunis, in Sanaa. We were 
focused, Secretary Clinton was so focused, all of us were, on 
protecting our people in that period. No one was trying to 
misrepresent anything. People were trying to get to the bottom 
of this and deal with those immediate threats. And of course 
the intelligence community, my colleagues there, I am sure they 
wish that they could have corrected the inaccuracy, because in 
fact there was no protest and no demonstration in Benghazi that 
night prior to the attack, as the ARB report points out. Wish 
they could have corrected that inaccuracy earlier. But that 
inaccuracy was not the result of anybody trying to misrepresent 
anything or mislabel or anything else. People acted in good 
faith during that period. I am absolutely convinced.
    Mrs. Schmidt. I have something else that is troubling me. 
In plowing through information, I am still trying to plow 
through it, we used the February 17th group to protect us, 
correct? And yet we knew that they were unreliable in other 
instances and yet we still allowed them to be our protection 
and yet when things happened they ran, and is it because they 
are cowards, they are ill prepared, are the ill trained or is 
something more nefarious going on? I mean, there are some folks 
that suggest, and one of them is Joan Schaan, a fellow at Rice 
University Institute of Public Policy, that these folks were 
connected to al-Qaeda and that this was to undermine our 
security.
    Are we looking at those kinds of things to make sure that 
when we are having security on the ground from a foreign 
country secure us that they are not connected to our enemy?
    Mr. Burns. We certainly are, Ma'am. And the ARB report 
points out the inadequacy of the reliance on the February 17 
Brigade. The reality is that our diplomats had experience 
dealing with them during the revolution where they played a 
prominent role in Benghazi. Especially Chris Stevens knew, you 
know, a number of those groups and they had responded 
adequately in earlier occasions, but the obvious reality is 
here that it was inadequate.
    Mrs. Schmidt. I know I have 5 seconds. But have we looked 
at who they are friends with and what their lineage was and if 
there is any connection to a terrorist organization like al-
Qaeda? 
    Mr. Burns. Absolutely, we are looking at all those 
questions very carefully.
    Chairman Ros-Lehtinen. Thank you. Thank the gentlemen.
    Mr. Cicilline of Rhode Island is recognized.
    Mr. Cicilline. Thank you, Madam Chairman, and I want to 
begin by thanking you for your leadership of this committee as 
it may be the last opportunity I have to do that and also to 
acknowledge the extraordinary leadership of our ranking member 
Mr. Berman, who is a recognized statesman and will be missed by 
this committee, by this Congress and by our country and I just 
want to thank him for his extraordinary contributions. And to 
Mr. Ackerman, thank you and I hope it is appropriate for me to 
associate myself with your remarks toady, they were poetic and 
important and to Mr. Carnahan, thank you also for your service.
    I thank you, Ambassador and Mr. Secretary, for being here 
and appreciate both the work that you are doing and the 
testimony that you have provided today. I particularly want to 
extend recovery wishes to Secretary Clinton and acknowledge her 
extraordinary work and leadership and wish her a full and 
speedy recovery and ask that you communicate that to her on my 
behalf.
    This is the committee's second hearing on the events of 
September 11th at the diplomatic post in Benghazi, Libya that 
resulted in the tragic deaths of Ambassador Stevens and three 
other brave Americans, Sean Smith, Tyrone Woods, and Glen 
Doherty. These attacks are an example of how increasingly 
dangerous it is for our diplomats to do the work that they do 
all around the world. And while we cannot eliminate all risk, I 
think it is clearly our responsibility to do everything that we 
can to mitigate and manage those risks. And I want to 
acknowledge and thank Admiral Mullen and Ambassador Pickering 
for undertaking this really comprehensive and prompt review of 
this important matter, and again applaud Secretary Clinton for 
accepting the conclusions and for developing a task force for 
the immediate implementation of all 29 recommendations. And I 
want to say that I look forward to determining how we can help 
facilitate the implementation of those recommendations. If 
there are specific ideas that you have today of things we 
should be doing as a committee, as a Congress to support the 
implementation of those important recommendations, I would very 
much like to hear that.
    I appreciate the insight that this review has provided and 
I think our responsibility now is to be sure that the resources 
and other necessary support that we can provide is provided so 
that these recommendations can be fully adopted.
    What I would like to ask you to comment on is I know that 
the Secretary ordered a worldwide review of diplomatic posts, 
particularly posts that have high threat, identified as high 
threat posts. And I would like to know whether or not we--
whether or not the Department has the resources it needs or are 
there additional things we should be doing to be sure that in 
the interim, as the longer process of implementing the 29 
recommendations is underway, would you tell us a little bit 
about what you found in that review, if it has been completed, 
about the remaining high risk posts, are there things we should 
be doing. I am particularly interested to know have you done an 
assessment of the capabilities and commitments of our host 
nations, which I know are responsible for some of the security 
and I think we have a long-term sort of responsibility and some 
things in the short term. Again I am very grateful you are here 
today and thank you for your testimony.
    Mr. Nides. Congressman, thank you very much. When about 60 
days ago, when Secretary ordered us to take a review, a very 
clear view of the posts in what we are referring to as the new 
normal, the high risk posts. We determined that list of 
approximately 19 posts. Again this is not an exhaustive list, 
any day we could wake up and find another country on that list. 
There were 19 posts in which a team of Defense and State 
Department together, actually there were four people on each 
team, five teams. They immediately hit airplanes and went 
around the world to basically assess. And we gave them very 
clear instructions. Number one, they could ask any question. 
They were to determine any kind of vulnerability which we may 
have. They need to assess not only the desire of the country to 
protect, but their ability to protect. As my colleague has 
pointed out, there is sometimes a difference between the two, 
especially in some new governments. We have come back with a 
lot of conclusions, including quite frankly some very specific 
needs, everything from we need bigger walls; do we need more 
fire equipment?; do we need to move the consulate?; that it is 
too close to the road. We went to a level of detail to make 
sure we weren't missing anything. We compiled that, we have an 
ISAT implementing team that I will meet tomorrow morning again 
for now I think the third time over the last 3 weeks and list 
out exactly every item that we need to address.
    I want to make it clear, though, even with the 19 posts 
there are many, many other places around the world that we are 
vulnerable. But again, as I said before, we are relying on two 
things. We are relying on the host government to protect us, 
and we are relying on the fine work of our Diplomatic Security 
operations and, quite frankly, to make sure they have the 
resources. We are very much focused on that and we will be 
coming back to this Congress with the needs to make sure that 
we have for the 2014 budget on top of the money we have already 
asked for in 2013, which is the monies we have already 
discussed.
    Thank you.
    Mr. Cicilline. I hope that as you implement the 
recommendations of the report that you feel free to communicate 
with this committee about what your needs are so that we can be 
certain we are supporting the resources that you need to 
successfully implement all those recommendations.
    I thank you again.
    Chairman Ros-Lehtinen. Thank you. Mr. Johnson of Ohio is 
recognized.
    Mr. Johnson. Thank you, Madam Chairman. Gentlemen, first of 
all, thank you for coming before our committee today and 
testifying. Let me ask were either one of you in a decision 
making role, either part of the decision making process to 
having received the request for increased security at our 
compound in Benghazi, or denying that security, or denying the 
support when it was asked for in those tragic last moments? 
Were either of you a decision maker?
    Mr. Burns. In the run-up to the attack that took place in 
Benghazi, as the ARB report makes clear, there were a number of 
requests that were made by----
    Mr. Johnson. Were either of you a decision maker?
    Mr. Burns. No, no.
    Mr. Johnson. Then I am not sure why we are talking to you 
two guys. You see, I am way past the rhetoric of the YouTube 
video and the ruse that the administration tried to perpetrate 
on the American people in an election year. The American people 
are looking for accountability. Who made these decisions that 
got four Americans killed? I spent 26\1/2\ years in the Air 
Force. Our troops and our diplomats that go into foreign places 
in harm's way go with the knowledge of two things: One, they 
understand that there is a risk, but they also understand that 
they are citizens of the greatest, most powerful nation on the 
planet and they go with the confidence that America is going to 
do everything possible to ensure their security. It is 
unconscionable to me that anyone, any American diplomat would 
be in a situation where their security request would be denied 
and that forces were not in place to respond when and if things 
got out of control.
    I want to look at a couple of things in the report. The 
report says although the interagency response was timely and 
appropriate--I don't know how we can say that, we got four dead 
Americans--there was not enough time for military assets to 
arrive and make a difference. Intelligence provided no 
immediate specific tactical warning of the attacks. In other 
words, we got surprised. We got surprised. One of the most 
important factors in warfare is the element of surprise. And we 
are at war with these seemingly visible elements of terrorist 
groups like al-Qaeda, Hamas, Hezbollah. We have known about the 
importance of surprise for generations and throughout the study 
of the art of war. Throughout my military career I have studied 
and practiced not only how to best exploit the element of 
surprise to gain the advantage against our adversaries, but 
also how to prevent our nation from falling victim to surprise. 
To say that we had no warning when clearly there were requests 
for increased security, to say that we had no warning after 
repeated requests for additional security represents absolute 
failure on someone's part. And I want to know who made the 
decision that our Ambassador and his staff, that their lives 
were not worth the risk of adequately preparing security for 
what we knew was a dangerous place.
    You see, the bad guys were sitting out there watching. They 
were testing the soft underbelly of America's resolve. That has 
been our soft underbelly since we were founded as a country. 
Are we really willing to stand up and protect the individual 
freedoms and liberties of the American people when the die is 
cast? They were probing and they saw no response to a worsening 
security situation and they caught us by surprise. It was a 
failure.
    The other thing the report says, that there was inadequate 
leadership and management by officials in Washington. That is 
why I gave you guys a back door to walk out of. You weren't 
decision makers, but somebody was. That is an understatement, 
that there was inadequate leadership, but to say it is excused 
because it was not willful is disturbing to me. When national 
security is at stake, leadership demands action, when serious 
security risks put American lives at stake, and in my view the 
decision makers who chose not to provide that security 
demonstrated not only irresponsibility, but willful misconduct 
and they should be held accountable.
    Mr. Burns, you answered earlier before we had to take our 
break that we were using every available resource in the State 
Department to get answers to these questions. You know, the 
State Department can't even muster the resources to free an 
American veteran being held illegally in Mexico against his 
will. I have little optimism that the State Department will 
achieve positive results on bringing the murderers to justice 
that killed our Ambassador and his staff. I respect that you 
two are here, but I want the decision makers in front of this 
Congress to answer to the American people on why we have got 
four dead Americans. 
    Mr. Burns. Congressman, let me just say a couple of things, 
first with regard to the issue of bringing to justice those 
responsible for those murders. What I said was that every 
resource of the U.S. Government, not just the State Department, 
is being brought to bear on that, and we are absolutely 
committed to that.
    Mr. Johnson. I will give you that.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Johnson. But that young man is still in Mexico so----
    Mr. Burns. Yes, sir.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Nides. And--sorry.
    Chairman Ros-Lehtinen. Thank you, Ambassador, and thank you 
very much, Mr. Johnson.
    Mr. Connolly of Virginia is recognized.
    Mr. Connolly. Madam Chairman, before my clock starts I also 
want to thank you for your chairmanship, for your service to 
your country and to the Congress. Stop that clock, please, 
somebody. And I really do appreciate how fairly and 
evenhandedly you have managed this committee under your 
chairmanship and I thank you. I also want to thank the ranking 
member, the former chairman of this committee, who has graced 
us for so many years and provided such a balanced and 
thoughtful and an intelligent approach to foreign policy. He 
will be missed, certainly by this Member of Congress, and I 
thank you both so much for your years of service.
    Thank you, Mr. Ambassador, thank you, Mr. Nides, for being 
here today. Now were you both at the meeting in which senior 
officials of the State Department clearly conspired to make 
sure the word ``terrorism'' was blotted out from the American 
lexicon at least through the election?
    Mr. Burns. Congressman, there was no such meeting.
    Mr. Connolly. Oh, gosh, just listening to my colleague just 
now I thought there must have been such a meeting. No? Well, 
certainly you were at the meeting where Ambassador Brenner was 
directly told he had to stop talking about terrorism. Were you 
at that meeting?
    Mr. Burns. Congressman, Congressman, all I can say to you 
is that this administration, the U.S. Government throughout my 
30 years of service has been deeply concerned about the 
challenge----
    Mr. Connolly. Mr. Ambassador, non-denial, were you at such 
a meeting or not?
    Mr. Burns. As I said, no such meeting.
    Mr. Connolly. No such meeting happened. How about you, Mr. 
Nides, you must have been at that meeting.
    Mr. Nides. No, sir, I was not.
    Mr. Connolly. Well, then one of you must have been at a 
meeting in which Secretary Clinton, the President and our 
Ambassador of the United Nations, Ms. Rice, Ambassador Rice 
conspired to get Susan Rice on the Sunday television shows and 
lie about the tragedy of Benghazi. Were you at that meeting?
    Mr. Nides. No.
    Mr. Burns. No, sir.
    Mr. Connolly. To your knowledge was there such a meeting?
    Mr. Nides. No.
    Mr. Connolly. Oh, because I would have thought there must 
have been. When a tragedy occurs such as this, and I am old 
enough to have worked up here when Ronald Reagan was President 
and we had not just one tragedy in Lebanon, we had multiple 
tragedies in Lebanon. We lost our Embassy, we lost an MAU, a 
Marine Amphibious Unit, that was guarding the airport, hundreds 
of lives lost. I don't remember Democrats saying he had blood 
on his hands. I don't remember Democrats saying that he was 
conspiring to lie. When in fact shortly after he pulled out in 
the dead of night from Lebanon and we then invaded Grenada, I 
don't remember people questioning his integrity or his 
patriotism. Some people might have questioned his judgment. But 
apparently we don't have any limits anymore in foreign policy.
    A tragedy occurred in Benghazi. Benghazi is inherently 
unstable. Would that be a fair statement, Ambassador Burns?
    Mr. Burns. Yes, sir, Benghazi in that period and to this 
day is still in a very unstable place.
    Mr. Connolly. Have you read the report chaired by 
Ambassador Pickering and Admiral Mullen?
    Mr. Burns. I certainly have.
    Mr. Connolly. And did that report conclude that Susan Rice 
or Secretary Clinton or Charlene Lamb for that matter were 
responsible for the tragedy in Benghazi, was that the 
conclusion of this report?
    Mr. Burns. The report concluded very clearly that it was 
terrorists who were responsible for the deaths of our 4 
colleagues.
    Mr. Connolly. Did the report conclude that there was a 
deliberate or even less than deliberate effort to cover up that 
fact at any time, at the time of the event or subsequently?
    Mr. Burns. No, sir.
    Mr. Connolly. Is it fair perhaps to conclude that in 
retrospect mistakes were made within the State Department about 
the allocation of resources and about the nature and extent of 
security that needed to be provided to Benghazi?
    Mr. Burns. It certainly is. The ARB was quite clear and 
quite candid in identifying the serious systemic problems that 
occurred. As we have both said before, those problems were 
unacceptable. We take responsibility for them and we are 
working very hard and we will continue to work hard 
relentlessly to fix them.
    Mr. Connolly. Mr. Ambassador, there is an old saying in 
legal circles that when they say it is not about money, it is 
about money. Did Ambassador Pickering and Admiral Mullen 
conclude inter alia that the focus on lack of resources imbues 
all decisions by the State Department, including this one, that 
decision, at the decision level managers are very aware of the 
fact they have scarce resources and they are constantly 
figuring out whether they can afford something or not afford 
something, including security which can sometimes lead to bad 
judgments. Is that a fair statement?
    Mr. Nides. Yes, it is.
    Mr. Connolly. And was that not in fact also part of the 
conclusion made by Ambassador Pickering and Admiral Mullen?
    Mr. Nides. There is no question the report indicates that 
we need to examine our funding levels to make sure that we have 
the resources to pay for the security and other operations that 
we currently need.
    Mr. Connolly. So with have no conspiracy, we have no secret 
meetings plotting to cover up, we have no secret meetings 
trying to pretend that the word ``terrorism'' somehow can be 
blotted out of our diplomatic efforts before or after the 
election, and we have a tragedy that we are trying to study to 
make sure it doesn't recur, but no conclusion was drawn in this 
report that it was somebody's direct responsibility and fault; 
it was a series of bureaucratic decisions that might have, 
might have avoided or mitigated the circumstance but no 
guarantee to that and money indeed was a factor in those 
decisions.
    Fair summary?
    Mr. Nides. Yes.
    Mr. Connolly. Thank you.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Marino of Pennsylvania is recognized.
    Mr. Marino. Thank you, Madam Chair. I want to thank you for 
your leadership. I have learned a great deal from you.
    And, Ranking Member Berman, thank you so much.
    Gentlemen, thank you very much for being here. I admire 
your professionalism and your candor with us. First of all, I 
would never second guess any of our personnel on the ground in 
Libya. As a prosecutor, I never second guessed other district 
attorneys or U.S. attorneys on a case that didn't turn out the 
way they wanted to. One doesn't realize until you are in that 
position. And I have the greatest respect for our military and 
rely on them actually more than politicians.
    But I do have a concern about why for several days, 
particularly Ambassador Rice was out blaming this on a video. 
And I know that you and our briefing yesterday clearly stated 
that the FBI is looking into that matter, so I am not looking 
for a statement from either of you on that issue because, quite 
honestly, if there were a meeting to cover something up I doubt 
very much if you two would have been invited.
    Now, saying that, I would like to talk about dollars a 
little bit and how much more we can become effective. And these 
figures that I am going to recite to you, I am not trying to be 
facetious, I am not trying to grandstand here, I am just trying 
to get an idea of where these decisions are made. Judicial 
Watch said that in 2011 about $5.6 million was spent on issues 
not related to what I would consider to be State Department 
issues. For example, $750,000 to restore a 16th century tomb 
complex in India, $700,000 to conserve ruins in Tanzania, 
$600,000 for a temple of the Winged Lions in Jordan. And I can 
go on and on. And my favorite is $100,000 for a program to 
document endangered musical traditions in Mali. And on top of 
that another $4.5 million, this is from the New York Times, to 
acquire art acquisitions for Embassies around the world through 
a program called Art in Embassies.
    Now, I appreciate the arts just as much as anyone else 
does, but who looks at these numbers? Is there any individual 
or entity that looks at these numbers and they are saying, 
well, we need personnel, we need equipment, and also we need to 
buy art for the Embassies? And that came to a total of about 
$10.1 million. Now, I am not even going to get into how many 
guards would that have hired and how much equipment could we 
have purchased. And I am sure this goes on in all departments 
and agencies and right here in Congress, you know, the same 
things. What can we do to prioritize and take advantage of the 
dollars that are there and at this point not wasting them, in 
my opinion--of course someone may have a good reason--on things 
like this? Would you please care to respond to that?
    Mr. Nides. Congressman, as someone who comes up here on a 
weekly basis and sits in front of the Appropriations Committee, 
and the appropriations and the authorizing committee staff as 
well, and has to justify every single dollar, and then I have 
to go in and justify whatever moneys are spent to Secretary 
Clinton--and you know Secretary Clinton, you know she does not 
like or will stand for wasting a dime. As relates to our needs 
to make sure every dime is spent correctly, we have lots and 
lots of people looking at this to determine that to be the 
case. There is nothing more we care about than to make sure 
that every dollar that we spend is used for the security and 
the infrastructure of our people.
    I think we get it right 99 percent of the time. And I am 
not going to comment on either one of these programs you spoke 
about. We could have a conversation later if you would like to. 
We can talk about each one of those programs. But I think 
generally most people would suggest, certainly our authorizers 
and appropriators, that we spend our money, for the money we 
have, and again which is less than 1 percent of the Federal 
budget, pretty effectively.
    Mr. Marino. But let me say again, in explaining to my 
constituents who are losing their jobs and their houses, there 
is no explanation according to that.
    Mr. Nides. And I appreciate that.
    Mr. Marino. Ambassador, do you have any comments?
    Mr. Burns. No, I don't really have anything to add to what 
Tom said. It is a very good question and we weigh very, very 
carefully how these resources are used in the Department.
    Mr. Marino. Perhaps in the future, not only at State, but I 
hope in other departments, we do have someone that takes a look 
at these expenditures, and I would have rather seen over $10 
million go toward our Embassies for protection.
    I yield back. Thank you.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Marino.
    Mr. Berman, the ranking member, is recognized.
    Mr. Berman. Thank you very much, Madam Chairman. I would 
like to put into the record a----
    Chairman Ros-Lehtinen. Without objection.
    Mr. Berman [continuing]. Congressional Research Service 
report detailing how much was requested by the administration 
and how much was funded and appropriated by the Congress, both 
for the personnel for Worldwide Security Protection and for 
Embassy Security Construction and Maintenance accounts.
    Needless to say, the amount shows in each of the last 3 
fiscal years cuts by the Congress from the requested amount, 
particularly in construction, maintenance, and Embassy 
security.
    Secondly, we talk about what programs money was spent on 
and if they were a higher priority. My guess is if we looked at 
our own congressional budget we could see programs that the 
people in our districts might not be that excited about. But on 
the issue of global climate change the Congress has 
appropriated out of the foreign assistance program for 3 fiscal 
years--Fiscal Year 2010, $507 million; Fiscal Year 2011, $522 
million; Fiscal Year 2012, $481.5 million--the request this 
year is a lesser amount. We haven't completed the 
appropriations process for the year that began in October 1st, 
but the administration requested $469 million. The money spent 
on bilateral foreign assistance programs for climate change is 
appropriated by the Congress. That is just the bilateral 
assistance, it doesn't cover assistance going to the World 
Bank.
    And finally I have a question for Ambassador Burns. I am 
told a Fox News report today titled ``State Department Official 
Suggests Libya Warnings Went to the Top,'' implies that 
Secretary Clinton knew about the request for security at the 
post in Benghazi. It cites something that you said this 
morning. I have to admit I didn't watch television to see the 
hearing this morning so I don't know what it is they are 
referring to, but I think it is misinterpreting, from what I 
understand, what you did say this morning; so I want to clear 
it up. Did Secretary Clinton know about the request for 
additional security? Did she know that requests had been denied 
or that some of our folks on the ground thought that the post 
was inadequately secured?
    Mr. Burns. No, Congressman, she did not. As I mentioned in 
response to an earlier question this afternoon, the ARB report 
makes very clear that the specific security requests for 
Benghazi were dealt with at the bureau level, and the ARB is 
very clear in highlighting the importance of fixing the 
problems which existed there. So those specific security 
requests came up to the bureau level.
    That is distinct from general assessments of the security 
situation overall in Libya, including in eastern Libya, which 
the Secretary and others of us did see from time to time. And 
it did paint a troubling picture of the deterioration of the 
overall security situation in Libya, and in particular the 
weakness and incapacity of Libyan Government security 
institutions. And that is something that a number of us who 
visited Libya, including the Secretary, stressed to the Libyan 
authorities. And we have made concrete offers of assistance, 
along with some of our European partners and others, to try to 
help the new interim government in Libya develop those security 
institutions.
    Mr. Berman. Thank you very much. And I yield back Madam 
Chairman.
    Chairman Ros-Lehtinen. Thank you very much Mr. Berman.
    Mr. Duncan of South Carolina is recognized.
    Mr. Duncan. Thank you, Madam Chairman, and your leadership 
will be missed on this committee, but we are looking forward to 
the future.
    Just want to say that words mean something, and they should 
mean something. And I am glad that we are all finally in 
agreement that this instance was a terrorist attack. It took 
some in the administration a little longer to get there. But I 
noticed on page 1 of the ARB's report that the ongoing 
investigation is labeled an ongoing criminal investigation when 
I think it should be labeled a U.S. terrorist investigation, 
but maybe the same people that worded that also are the ones 
that called the Fort Hood massacre an incident of workforce or 
workplace violence. Words mean something.
    The ARB report points out a tremendous number of failures, 
and your testimony here today states that they are being 
addressed, and I appreciate that. I think they should be 
addressed for the safety and security of diplomatic personnel 
all over the world. But there are still many unanswered 
questions, especially about how do we protect and defend 
diplomatic corps and our sovereign territory, which is what 
Americans see our Embassies and our missions and our consulates 
as, little slices of U.S. territory located around the world.
    And let me just back up and say, you know, when we talk 
about labeling the incident in Benghazi a terrorist attack, 
even the President of the United States on the 12th said in his 
statement that no acts of terror will ever shake the resolve. 
He labeled it a terrorist attack the day after, and then they, 
after that, subsequently labeled it other things about a video. 
But what was the U.S. military's force posture in the region at 
the time of the attacks and the resulting ability of the U.S. 
Armed Forces to respond in the event of an attack like this?
    Mr. Burns. Well, Congressman, I can't describe in detail 
the precise force posture of the U.S. military in North Africa 
and the Mediterranean at that time. Admiral Mullen spoke to 
this publicly after the release of the ARB report when he 
explained that, given the speed of events and the pace of the 
attack, that there simply was not enough time for U.S. military 
forces in the region to have been used effectively to avoid 
what happened in Benghazi.
    Mr. Duncan. Was there a military liaison or attache at the 
Embassy in Tripoli?
    Mr. Burns. Yes, sir.
    Mr. Duncan. So he should have been the one to coordinate 
any response from a military standpoint working with the 
Department of State?
    Mr. Burns. Yes, sir. And the Embassy was very actively 
involved, in fact, and they chartered a plane within 2\1/2\ 
hours of the attack beginning in Tripoli and moved a reaction 
force of about seven security personnel from the Embassy in 
Tripoli to Benghazi that night. So they moved very quickly and 
professionally, just as the ARB report makes clear.
    Mr. Duncan. Let's just assume that there were military 
personnel in the area that could have responded. Were there any 
international agreements or over-fly rules that prevented 
immediate U.S. military action from taking place?
    Mr. Burns. No. Our priority at the time, if we could have 
moved forces fast enough to make a difference in that attack, 
that is certainly what we would have done. But as you know from 
the report, the first intensive part of the attack took place 
in less than an hour in the special mission compound. It 
resulted through fire in the deaths of Ambassador Stevens and 
Sean Smith. And then there was a period of a number of hours of 
fairly sporadic firing. It appeared as if the incident was 
dying down. And then there was a second very intense attack at 
5:15.
    Mr. Duncan. Well, I am going to assume that there were 
military assets in place that could have responded rapidly. 
Were there overflight rules in place or anything that would 
have prevented the United States military from taking action?
    Mr. Burns. I am not aware of anything that would have 
prevented us from taking action to try to protect our people 
had there been time to do it. The issue, as Admiral Mullen 
pointed out yesterday, was simply the pace of events and the 
time required.
    Mr. Duncan. Okay. Was the Joint Chiefs of Staff advising 
President Obama on how best to utilize the military resources 
to rescue the American Ambassador?
    Mr. Burns. Yes, sir. To the best of my knowledge there was 
a previously scheduled meeting at 5 p.m.--in the midst of the 
attack going on--between the President, Secretary Panetta and 
General Dempsey in which they discussed the ongoing situation. 
And so the President had the benefit of the best advice from 
the chairman of the Joint Chiefs at that time. And from 
everything I understand, the President was committed and 
instructed all of his officials to do everything possible. 
There simply wasn't enough time at that point to bring U.S. 
military forces.
    Mr. Duncan. How long did this attack last?
    Mr. Burns. The first part of the attack lasted for less 
than an hour at the special mission compound at Benghazi. And 
then, as I said, there was a period of a number of hours of 
kind of sporadic firing from time to time. And then the second 
intense part of the attack took place in about 15 minutes, from 
roughly 5:15 in the morning to 5:30 at the annex, which was 
about 700 meters away.
    Mr. Duncan. How long was it until we found out that our 
Ambassador was dead?
    Mr. Burns. As I can reconstruct it, it was about 4:15 in 
the morning when one of the locally engaged staff from Benghazi 
informed the team that I mentioned had come from Tripoli and 
was at the airport that Ambassador Stevens was confirmed dead.
    Mr. Duncan. Okay. One other question. I am out of time. But 
we have Marines in Buenos Aires guarding the Embassy down 
there. It is not a threat country. Libya is. Why weren't there 
United States Marines in a country that we knew was a threat to 
this country and to our assets there? And I will yield back.
    Chairman Ros-Lehtinen. Thank you very much.
    And now Mr. Turner of New York is recognized.
    Mr. Turner. Thank you Madam Chair. And thank you for your 
leadership during my brief time here.
    The security lapses and misstatements surrounding the 
attack in Benghazi I think have been covered rather thoroughly 
and I have very little to add. But these failures maybe speak a 
policy mindset of some disengagement in the epic worldwide 
battle, not simply between radical Islam and the West, but 
within Islam between the democratic forces and totalitarianism. 
Our seeming failures to engage and support the democratic 
forces have marginalized our intelligence efforts and our own 
effectiveness in positively influencing political and strategic 
outcomes. As a matter of state policy, are we indeed somewhat 
disengaged? Are we doing what we can to promote and support 
democracy in the Muslim world? Are we establishing the right 
relationships and communications channels that might have 
obviated this problem in Benghazi?
    Mr. Burns. Congressman, we are not at all disengaged. In 
fact, over the course of the last 2 years, as we have seen the 
Arab awakening bring profound changes across the Arab world, 
the United States has been very active in making clear our 
support for the dignity and the universal rights the people 
across that region deserve. And that has produced revolutions, 
the pursuit of dignity by those people, and it has also 
produced some very complicated transitions, transitions, which 
hold a great deal of promise in terms of people eventually 
being able to build political institutions that will protect 
those universal rights. But it has also produced a lot of 
dangers: The danger that power vacuums develop, the danger that 
others, extremist groups, will seek to hijack the promise of 
those revolutions.
    The United States cannot afford to be disengaged in the 
face of those kinds of challenges. There is risk involved, and 
we faced some of that in an extraordinarily painful way in 
Libya. But we have to be engaged, we have to do what we can to 
support successful transitions and ultimately the emergence of 
institutions which are going to protect people's dignity and 
produce over the long term partners with whom the United States 
can work on important issues around the world.
    Mr. Turner. Thank you.
    Would you like to add anything, Mr. Nides?
    Mr. Nides. I don't think there is anyone who is more 
eloquent in speaking than Ambassador Burns, I will let the 
record state.
    Mr. Turner. I would have to agree with that. Thank you. I 
yield back.
    Chairman Ros-Lehtinen. Thank you very much Mr. Turner.
    And I believe that our last question will be Mr. Mike 
Kelly, we are in good hands, the vice chair of the Subcommittee 
on Asia and the Pacific. Thank you, Mike.
    Mr. Kelly. I thank you, Madam Chair. And again, my first 
time in Congress was very privileged to serve with you, and I 
appreciate your leadership. Mr. Berman, we are going to miss 
you.
    Ambassador Burns, when you talk about, and I keep hearing 
about resources, only 1 percent of the budget, that doesn't 
sound like very much money. So what is our budget?
    Mr. Nides. Our budget is $50 billion.
    Mr. Kelly. $50 billion.
    Mr. Nides. That is correct. That is approximately 8 percent 
of the defense budget.
    Mr. Kelly. Okay. So when people hear 1 percent, doesn't 
sound like a lot of money, but $50 billion is certainly a lot 
of money. When we talk about resources, and I am trying to 
understand because I have listened to a couple of different 
briefings, I heard Mr. Pickering and Admiral Mullen, I have 
heard you gentlemen today. And I think maybe you are not the 
folks that should be here because, as Mr. Johnson pointed out, 
you aren't really part of the decision-making process. But what 
I am trying to understand, what I can't get my mind wrapped 
around, is everybody says this was a very unstable and highly 
volatile area. Then why, for God sake, would we take out the 
best trained people we have? Why? Why did we move the SST team? 
Was it because of money?
    Mr. Nides. Well, as you are aware, as we spoke about 
earlier----
    Mr. Kelly. It is just a yes or no. Was it because of money?
    Mr. Nides. No.
    Mr. Kelly. No, it wasn't because of money, because we know 
the SST team really came out of the Department of Defense 
budget, right? So it didn't have anything to do with your 
budget.
    Mr. Nides. The SST team, as you are aware, was in Tripoli, 
not Benghazi.
    Mr. Kelly. No, I am aware where they were, and also aware 
that Lieutenant Colonel Woods had begged to stay there. Mr. 
Nordstrom, with the regional office, had begged to stay there. 
Ms. Lamb said it wasn't because of money that they couldn't 
stay. Somebody made a really bad decision.
    Now, I don't have any idea of the voting registration of 
Ambassador Stevens, Sean Smith, Mr. Woods, Mr. Doherty, I have 
no idea how any of these folks were registered. So for me it is 
not a matter of it being a partisan issue. We have four dead 
Americans. I am trying for the life of me to understand how 
when we say--and I have read Ambassador Cretz, when he was 
leaving there, you know what everybody says about the area? It 
is a Wild West show, nobody is in charge, we are in a host 
country that can't supply us with the assets that we need.
    What in the world were we thinking? Why would we pull out 
people and make our Ambassador more vulnerable? What were we 
doing? And who made the decision? And if neither one of you 
made the decision say I didn't have anything to do with it. 
Because what I am finding out in this administration, that 
nobody had anything to do with it. If you had anything to do 
with it just say I had something to do with it and I made the 
decision.
    Mr. Nides. No.
    Mr. Kelly. Neither one of you?
    Mr. Nides. That did not have anything to do with it. That 
said, we do need to make sure----
    Mr. Kelly. Okay. Are you aware of a GAO request in 2009 to 
do a review because they thought it was woefully--the strategic 
review of our Embassies that were not taken and it was a 
strategic problem, a security problem? Any of you aware of 
that? We had a hearing on the October 10th. GAO was in here, 
said to this day the Department of State has not responded or 
done the review. Now, I find it interesting now we are going to 
do the review. It is a little bit late. So that hasn't take 
place. Now, I want to ask you, in addition to the four dead 
Americans, how many people were wounded that night?
    Mr. Burns. I think there were three Americans who were 
wounded and one of the wounded is still in Walter Reed 
Hospital, one of our colleagues.
    Mr. Kelly. Just one of them?
    Mr. Burns. I am not certain.
    Mr. Kelly. Any idea of how bad they were injured?
    Mr. Burns. Yes, sir. I mean, the gentleman, our colleague, 
who is at Walter Reed, was injured very badly.
    Mr. Kelly. Very badly. Okay.
    Mr. Burns. Yes, sir.
    Mr. Kelly. So whenever we found out this attack took place 
how long did it take us to get there, to fly to get there to 
help those people out that we knew were wounded? We knew we had 
dead, we knew we had wounded. How long did it take to get there 
and where did the plane leave from and where did it land?
    Mr. Burns. There was a plane that left from Tripoli within, 
as I mentioned before, about 2\1/2\ hours.
    Mr. Kelly. Where did the flight originate, do you know?
    Mr. Burns. In Tripoli.
    Mr. Kelly. So it was sitting in Tripoli?
    Mr. Burns. No. It was a chartered aircraft that the Embassy 
chartered as soon as they found out that the attacks----
    Mr. Kelly. So where did the chartered airplane take off 
from to get----
    Mr. Burns. Tripoli.
    Mr. Kelly. Tripoli?
    Mr. Burns. Yes, sir.
    Mr. Kelly. So it flew to Benghazi?
    Mr. Burns. Yes, sir.
    Mr. Kelly. How long did it sit on the tarmac?
    Mr. Burns. It sat on the tarmac--well, the team was there 
for about 3 hours while they were trying to determine what had 
happened to Ambassador Stevens.
    Mr. Kelly. Okay. So they couldn't get off the tarmac. So we 
flew them from Benghazi. Where did we fly them back to?
    Mr. Burns. I am sorry, fly?
    Mr. Kelly. The plane, you said it flew from Tripoli.
    Mr. Burns. Yes.
    Mr. Kelly. To Benghazi.
    Mr. Burns. Went to Benghazi.
    Mr. Kelly. Picked up our dead and our wounded?
    Mr. Burns. That is right.
    Mr. Kelly. And where did it fly to then?
    Mr. Burns. To Tripoli.
    Mr. Kelly. To Tripoli?
    Mr. Burns. Yes.
    Mr. Kelly. And then where did they eventually get their 
medical?
    Mr. Burns. Well, they got immediate medical care there 
first in Benghazi, then in Tripoli, and an Embassy nurse 
behaved heroically during that period.
    Mr. Kelly. I understand that. Where did the plane land 
finally?
    Mr. Burns. Then they were evacuated to Germany.
    Mr. Kelly. Germany. And when did we evacuate our people in 
Tripoli?
    Mr. Burns. It was within a few hours----
    Mr. Kelly. Of the attack?
    Mr. Burns [continuing]. That they returned to Tripoli.
    Mr. Kelly. Okay. A great deal of time. See, the timelines 
really get me confused here. And I think people were waiting to 
hear can we land, can we not land, can we get our people out, 
can we not get our people out. There is a great deal of time 
that evolved in between. And really, listen, I am not blaming 
you two because you two really shouldn't be here today, the 
Secretary of State should be here today. She can't be here. I 
understand she is injured, and I respect that. But there is 
something wrong here.
    And I am going to tell you this, that the American people 
should wonder what happened that night and why it took so long. 
But before that, why, why would we pull the best trained people 
we have out of an area that is called, it was a dangerous spot, 
it was a high risk, it was a high threat, and we made it a soft 
target. That is what I heard from Admiral Mullen, it was a soft 
target. We actually emboldened those folks that were there that 
night to say, you know, come and get us. We pulled out all our 
people. Do you know who we replaced the SST team with? Libyan 
nationals at $4 an hour, unarmed? And that is the way we 
respond to high-risk areas, that is how we respond to areas 
that are volatile, that is how we respond to areas that are in 
the worst spots possible?
    You know, the same time that we were doing this, do you 
know what we were doing in Vienna? We had a big party, the 
green initiative. We put in a $108,000 electric charging 
station for two electric cars, we had a champagne party, we 
talked about how great we were in this green initiative. But 
you know what I don't understand is how in the world could we 
leave our people in Benghazi so vulnerable.
    Chairman Ros-Lehtinen. Thank you. Thank you, Mr. Kelly.
    Mr. Kelly. And if it is about resources that is baloney, 
and you know it and I know it. And I for one am really 
disappointed in the way the Secretary of State and Department 
of State has handled this?
    Chairman Ros-Lehtinen. Thank you Mr. Kelly.
    Mr. Fortenberry, the vice chair of the Subcommittee on 
Africa, Global Health, and Human Rights, is recognized?
    Mr. Fortenberry. Thank you, Madam Chair, for holding this 
important hearing. Although this might be a bit discomforting I 
must divert and address something that happened earlier in this 
hearing. I don't care to be lectured to about the need to be 
bipartisan, particularly in such an intolerant and uncivil 
tone.
    Now, this is an important hearing, there are serious 
questions here, and to suggest that our motives are a ruse for 
political motivation to me is disrespectful and discourteous 
and I think unworthy of the levity of this important matter. So 
gentlemen, I want to thank you for coming and your willingness 
to address in a professional manner hard questions that are 
before you today. I also do look forward to hearing from 
Secretary Clinton when she is available and wish her the best 
of recoveries.
    After meeting with Ambassador Pickering and Admiral Mullen 
recently I am confident that they did a thorough job with the 
Accountability Review Board. Theirs was a sobering and daunting 
task and I think they gave us a good strong framework for 
future guidance. However, there are still some unanswered 
questions. You have touched on them at length today, but I have 
got to go back to a few. Many people see the administration's 
public commentary in the aftermath of Benghazi as misleading. 
The video narrative was given as the primary explanation of the 
deadly assault and this was wrong. You have suggested so.
    I can see how there might have been an initial discussion 
of the potential linkage of the video given the incidents, 
particularly in Cairo, to the suggestion that that was a motive 
for the attack. But I also think the video narrative reflects a 
certain tendency at State perhaps to inordinately place hope 
and good will and civil society, deemphasizing the harsh 
realities that there are enemies out there who could 
potentially conduct a coordinated attack on our facilities. Our 
officials quickly knew that we were dealing with a premeditated 
terrorist attack, but the video narrative persisted. Can you 
explain why?
    Mr. Burns. Well, Congressman, I would say a couple of 
things. First, I have learned in more than 30 years in the 
Foreign Service to understand harsh realities very clearly. It 
is a very complicated world, especially in the Middle East, and 
it can be a very risky landscape. And I can assure you that our 
diplomatic missions understand that very well, and we certainly 
do in Washington as well. As I tried to explain before, the 
officials, the administration officials who addressed this 
issue, and the intelligence community professionals, on whom 
they depended, acted in good faith.
    This was a terrorist attack and we tried to address that 
plainly at the start. What was unclear were the exact 
composition of the attackers, their motives, how this came 
about; whether it was more a target of opportunity or something 
that had been planned well in advance. And those issues are 
still the subject of investigation. But there was no protest, 
there was no demonstration that took place before the attack. I 
am sure my colleagues in the intelligence community wish that 
they could have come to that conclusion more quickly. It did 
take a period of several days to debrief the survivors of the 
attack in Benghazi. And then as soon as my colleagues in the 
intelligence community were able to conclude there was no 
protest, there was no demonstration, they were up here to brief 
you and your colleagues on that.
    As I said, Congressman, the truth is people operated in 
good faith. I have been through a number of these kinds of 
crises in the past. The first stages of them are often 
confusing and you are sifting through lots of conflicting 
information. I honestly do not believe that there was ever an 
attempt to misrepresent or mislead anyone?
    Mr. Fortenberry. I guess the question becomes then, what 
was communicated to the White House and the State Department 
during the Benghazi attack?
    Mr. Burns. Well, during the attack, sir, there was very 
intensive communication between our Embassy in Tripoli, our 
people on the ground in Benghazi. You know, the ARB looked very 
carefully at this issue, and their conclusion, and I respect 
it, is that there was a very professional and systematic 
communication and decision-making between Washington and the 
field during this period. And the President was actively 
engaged, certainly Secretary Clinton was very actively engaged 
throughout that awful night.
    Mr. Fortenberry. There is a letter from several United 
States Senators to the President in early October, nearly a 
month after the attack, asking for more fullness of 
explanation. So you have again a video narrative still churning 
out there as one possible explanation. Some conflicting 
viewpoints, publicly stated, I accept that, you are correct. 
But there was no answer to that letter asking for a full 
unpacking of what information was to be had given what we 
clearly know now. And they asked for information again at the 
end of October. So I think you can understand why there are 
questions as to why this has persisted for so long and 
suggestions that why is there an intention to potentially 
mislead here.
    Mr. Burns. All I can say, Congressman, again, is I honestly 
do not believe there was ever any intention to mislead or 
misrepresent. There were some inaccuracies in the original 
statement----
    Mr. Fortenberry. Can you explain the delay in response?
    Mr. Burns. I am sorry, response?
    Mr. Fortenberry. Well, I am looking at a letter from 
Senator Graham and McCain and Ayotte and Johnson.
    Mr. Burns. No, I mean, we owe you straight answers to 
correspondence.
    Mr. Fortenberry. Okay. Well, again, thank you for your 
professionalism, your dedication. I appreciate your willingness 
to come today.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Fortenberry.
    Gentlemen, thank you again for your testimony. Please 
convey to the Secretary our wish for her speedy and full 
recovery. We look forward to her testimony here before mid-
January.
    And, ladies and gentlemen, it has been a thrill to have 
been the chairman of this committee but for a minute, and it 
has been a delight to serve with my ranking member, Mr. Berman.
    Mr. Berman. You are a true friend.
    Chairman Ros-Lehtinen. Thank you. And with that the 
committee is adjourned.
    [Whereupon, at 4:50 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 Letter submitted for the record by the Honorable Howard L. Berman, a 
        Representative in Congress from the State of California



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Congressional Research Service report submitted for the record by the 
Honorable Howard L. Berman, a Representative in Congress from the State 
                             of California



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
